<html>
<title> - OPEN FOR BUSINESS: ENSURING EMPLOYEE AND CUSTOMER SAFETY AT THE FORMER BRENTWOOD POSTAL FACILITY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
OPEN FOR BUSINESS: ENSURING EMPLOYEE AND CUSTOMER SAFETY AT THE FORMER 
                       BRENTWOOD POSTAL FACILITY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 23, 2003

                               __________

                           Serial No. 108-107

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform







                   U.S. GOVERNMENT PRINTING OFFICE
91-921                       WASHINGTON : 2004
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, 
DC 20402-0001





                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 23, 2003.................................     1
Statement of:
    Reid, Myke, assistant legislative director, American Postal 
      Workers Union, AFL-CIO, accompanied by Corey Thompson; and 
      Richard Collins, assistant to the national president, 
      National Postal Mail Handlers Union, accompanied by Cynthia 
      Vines......................................................    92
    Ungar, Bernard L., Director, Physical Infrastructure Issues, 
      U.S. General Accounting Office; Keith Rhodes, Chief 
      Technologist, Center for Technology and Engineering, 
      Applied Research and Methods; Janet Heinrich, Director, 
      Health Care and Public Health Issues; R. Davis Layne, 
      Deputy Assistant Secretary of Labor, Occupational Safety 
      and Health Administration, U.S. Department of Labor; Thomas 
      Day, vice president of engineering, U.S. Postal Service; 
      and Jerry Lane, manager of Capital Metro Operations, U.S. 
      Postal Service.............................................    11
Letters, statements, etc., submitted for the record by:
    Collins, Richard, assistant to the national president, 
      National Postal Mail Handlers Union, prepared statement of.   106
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   121
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia:
        Letter dated November 20, 2003...........................    75
        Prepared statement of....................................     3
    Day, Thomas, vice president of engineering, U.S. Postal 
      Service, prepared statement of.............................    43
    Gordon, Theodore, District of Columbia Department of Health, 
      prepared statement of......................................    67
    Lane, Jerry, manager of Capital Metro Operations, U.S. Postal 
      Service, prepared statement of.............................    57
    Layne, R. Davis, Deputy Assistant Secretary of Labor, 
      Occupational Safety and Health Administration, U.S. 
      Department of Labor, prepared statement of.................    33
    Norton, Hon. Eleanor Holmes, a Representative in Congress 
      from the District of Columbis, prepared statement of.......     9
    Reid, Myke, assistant legislative director, American Postal 
      Workers Union, AFL-CIO, prepared statement of..............    95
    Ungar, Bernard L., Director, Physical Infrastructure Issues, 
      U.S. General Accounting Office, prepared statement of......    13


OPEN FOR BUSINESS: ENSURING EMPLOYEE AND CUSTOMER SAFETY AT THE FORMER 
                       BRENTWOOD POSTAL FACILITY

                              ----------                              


                       THURSDAY, OCTOBER 23, 2003

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:30 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Tom Davis and Norton.
    Staff present: Peter Sirh, staff director; Keith Ausbrook, 
chief counsel; Jack Callender, counsel; Robert Borden, counsel/
parliamentarian; David Marin, director of communications; 
Teresa Austin, chief clerk; Brien Beattie, deputy clerk; 
Shalley Kim, legislative assistant; Corinne Zaccagnini, chief 
information officer; Rosalind Parker, minority counsel; Earley 
Green, minority chief clerk; Jean Gosa, minority assistant 
clerk; and Cecelia Morton, minority office manager.
    Chairman Tom Davis. Good afternoon. The committee will come 
to order. Ms. Norton will join us shortly.
    Before we proceed with opening statements, the Postal 
Service and the American Postal Workers Union have asked to 
videotape today's hearing, and without objection, the Postal 
Service and the American Postal Workers Union should be allowed 
to record today's hearing, subject to the requirements of House 
Rule XI, including the prohibition to the use of video coverage 
as part of some campaign material.
    We're here today to discuss the cleanup and the reopening 
of the U.S. Postal Service's Joseph Curseen, Jr. and Thomas 
Morris, Jr. Processing and Distribution Center on Brentwood 
Road in Washington, DC. We all remember the terrible events of 
October 2001, when the dedicated postal employees of the 
Brentwood Processing Center joined the front lines in the war 
on terrorism. Tragically, two workers, Joseph Curseen and 
Thomas Morris, lost their lives to anthrax, which passed 
through the building in letters addressed to Senators Daschle 
and Leahy. Two other postal workers were infected and the 
building has remained closed to this day.
    In July 2001, the Subcommittee on the District of Columbia 
held a hearing on the Postal Service's plan to clean and reopen 
the facility, an effort which at that point was just beginning. 
Now, with the cleanup complete and reopening scheduled for next 
month, we're following up on that hearing.
    The Postal Service, in consultation with scientists and 
experts from various Federal and local agencies, conducted the 
largest anthrax decontamination using chlorine dioxide in our 
Nation's history. This hearing will examine the conduct of the 
cleanup, the manner by which the Postal Service determined the 
building was safe to reoccupy and how well the Postal Service 
communicated with its workers.
    Let me reemphasize that last point. Over the next few 
months, the Postal Service will be asking its employees to 
reenter the building where two of their colleagues were killed 
by an invisible airborne germ. It goes without saying that 
they're afraid. A partial cure for their fears is complete, 
open communication about the cleanup and about their options.
    Yesterday, we learned that a suspicious package found in 
the Greenville, SC Air Mail Facility was confirmed to contain 
ricin, a deadly plant toxin. Although it appears that no ricin 
escaped the package, the facility was shut down for 
environmental testing last night. This was a developing 
situation, so I don't expect to hear the full story in this 
hearing but how the Postal Service handles the situation in 
Greenville will certainly show how well they have learned the 
lessons of Brentwood. I am also certain that the news of the 
Greenville incident will weigh heavily on the minds of postal 
employees around the country in the coming days and weeks, so 
we need to be certain that appropriate time and resources are 
aimed at answering whatever questions or concerns they may 
have.
    We have two panels of witnesses today. On the first panel 
are Bernard Ungar, a frequent testifier here from the General 
Accounting Office, who has been examining the Postal Service's 
communication with its employees.
    We have Thomas Day, the Postal Service vice president of 
engineering, and Jerry Lane, the president of Capitol Metro 
Operations, both of whom have been intimately involved in every 
aspect of the cleanup and its reopening; Davis Layne from the 
Occupational Safety and Health Administration, and Theodore 
Gordon, of the District of Columbia Department of Health. OSHA 
and the D.C. Department of Health helped plan the cleanup and 
participated in the Environmental Clearance Committee, which 
reviewed the cleanup.
    On the second panel, we have Dick Collins of the National 
Postal Mail Handlers Union, and Myke Reid of the American 
Postal Workers Union. Together they represent most of the craft 
employees who will be returning to this facility.
    I want to thank everybody for coming, especially in light 
of the schedule change. In addition to these witnesses, the 
National Association of Letter Carriers and Councilman Vincent 
B. Orange of the District of Columbia were invited to testify 
but unfortunately couldn't attend today's hearing. Without 
objection, their written testimony will be included and placed 
in the record as Ms. Norton had requested.
    I also understand that Keith Rhodes and Jan Heinrich with 
GAO are to be here. We'll swear them in because we may be 
asking them questions. I'll now recognize the distinguished 
Delegate from the District of Columbia, Ms. Norton.
    [The prepared statement of Chairman Tom Davis follows:]
    [GRAPHIC] [TIFF OMITTED] 91921.001
    
    [GRAPHIC] [TIFF OMITTED] 91921.002
    
    [GRAPHIC] [TIFF OMITTED] 91921.003
    
    [GRAPHIC] [TIFF OMITTED] 91921.004
    
    Ms. Norton. Thank you very much, Chairman Davis. When I 
approached Chairman Davis to ask about a hearing on the 
Curseen-Morris Postal Facility, formerly known as Brentwood, be 
held prior to its reopening, he readily agreed. My good friend 
Tom Davis has my sincere gratitude for today's hearing. This is 
the second conventional hearing on Curseen-Morris and the first 
full committee hearing since anthrax was discovered in the 
building, resulting in two tragic deaths and serious illness to 
two employees and subjecting other employees to a medical 
regimen, including the drug Cipro.
    Last year, I requested a field hearing concerning this 
facility. It was held July 26, 2002, to bring the Congress to 
the community and encourage attendance by residents and 
employees at a time when there was still uncertainty and rumors 
concerning health and safety matters. However, today's hearing 
is appropriately before the full committee and here in the 
Congress itself. Curseen-Morris is responsible for 
congressional mail and all mail to Federal buildings in this 
area, as well as mail to residents, businesses and others in 
this city and region.
    Moreover, despite the independence of the Postal Service, 
Congress has the ultimate responsibility to ensure that postal 
facilities here and around the Nation are not exposed to 
bioterrorism. I said at last year's hearing that before 
employees or the public returned to Curseen-Morris, I would 
request a hearing to investigate whether reentering a building 
where there had been two tragic deaths as well as illnesses to 
employees posed any risks. At that hearing, I asked the CDC to 
conduct an epidemiological or similar study to compare the 
health of workers from Brentwood with the health of workers who 
have never worked in an anthrax-contaminated facility. In 
addition, along with a Member of the Senate and a Member of the 
House who does not serve on this committee, I requested a GAO 
report on the anthrax episode from its origins to its effects. 
I say again that I believe in order to reassure employees, 
public officials should be the first to enter the buildings 
before employees are asked to return to work, and I am pleased 
that postal and union officials have said they want to be part 
of a reentry.
    The job of decontaminating a 632,000 square foot facility, 
where 2,400 employees worked has no precedent anywhere in the 
world of which I am aware. We have an obligation today to learn 
whether the Postal Service has done it right, to try to 
determine whether such an event could occur again, and to learn 
how to prevent any such reoccurrence here or elsewhere. The new 
proposed irradiation facility on the property also raises new 
issues that require explanation. Besides the paramount issue of 
safety and security for human beings in this virtually new 
facility, we will be interested to learn if the witnesses can 
lay to rest such matters as the invidious comparison some have 
made between the Hart and Brentwood cleanups and the delay in 
closing the facility.
    I hope that today's hearing will provide enough information 
to allow us to put behind us one of the most serious and tragic 
episodes in American workplace history. However, let us never 
forget Joseph Curseen, Jr., and Thomas Morris, Jr., the 
employees who died at the old Brentwood facility. In renaming 
the building for these dedicated employees and family men, both 
born and raised in the District, where the facility is located, 
we will be reminded of our obligation to make this and every 
other workplace in our city and our country safe from 
bioterrorism.
    I thank you, again, Mr. Chairman, and I welcome today's 
witnesses.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]
[GRAPHIC] [TIFF OMITTED] 91921.005

[GRAPHIC] [TIFF OMITTED] 91921.006

    Chairman Tom Davis. Well, thank you very much. We will now 
move to our first panel. If you would rise with me, it is our 
custom to swear in witnesses. Raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you very much.
    I think you know the rules of the committee. Your entire 
statement is in the record. We try to keep the testimony to 5 
minutes.
    We have questions formed, Ms. Norton and I, in terms of 
what we want to ask you, but you can highlight that in the 5 
minutes. When your light turns orange, it means 4 minutes are 
up and, when it turns red, 5 minutes. If you could start to 
summarize at that point and, Mr. Ungar, we'll start with you 
and we'll move right on down.

      STATEMENTS OF BERNARD L. UNGAR, DIRECTOR, PHYSICAL 
 INFRASTRUCTURE ISSUES, U.S. GENERAL ACCOUNTING OFFICE; KEITH 
     RHODES, CHIEF TECHNOLOGIST, CENTER FOR TECHNOLOGY AND 
  ENGINEERING, APPLIED RESEARCH AND METHODS; JANET HEINRICH, 
DIRECTOR, HEALTH CARE AND PUBLIC HEALTH ISSUES; R. DAVIS LAYNE, 
 DEPUTY ASSISTANT SECRETARY OF LABOR, OCCUPATIONAL SAFETY AND 
 HEALTH ADMINISTRATION, U.S. DEPARTMENT OF LABOR; THOMAS DAY, 
VICE PRESIDENT OF ENGINEERING, U.S. POSTAL SERVICE; JERRY LANE, 
 MANAGER OF CAPITAL METRO OPERATIONS, U.S. POSTAL SERVICE; AND 
   THEODORE GORDON, DISTRICT OF COLUMBIA DEPARTMENT OF HEALTH

    Mr. Ungar. Thank you, Mr. Chairman, Ms. Norton. We are 
certainly pleased to be here to assist the committee in looking 
at the reopening of the Curseen-Morris mail facility at 
Brentwood. As you indicated this morning, Mr. Chairman, I'm 
accompanied by Keith Rhodes and Janet Heinrich, who are experts 
in the various fields in our office related to this issue, and 
also by Jay Bryant and Jack Melling from GAO, who can help 
answer questions if you get into some real technical topics.
    The tragic events that unfolded in October 2001 at 
Brentwood were indeed unfortunate. A key lesson that was 
learned in that experience is that there is a high risk of the 
mail being used intentionally as a conduit for hazardous 
substances to cause harm, whether it is intended for a postal 
employee or someone outside the Postal Service. Accordingly the 
Postal Service, public health agencies, the Occupational Safety 
and Health Administration and others must be prepared to manage 
and deal with this risk and to address these kinds of incidents 
when they occur.
    What I would like to do in my short summary this afternoon 
is just focus on one key area in which a significant lesson was 
learned, and that's in the area of communication with 
employees. This was a very problematic issue back in the fall 
of 2001, especially at the Brentwood facility. A lot of the 
information that was provided to the Brentwood employees 
changed over the course of time due to changing--largely due to 
changing public health knowledge of anthrax and its 
implications during that period of time. Unfortunately, much of 
the information that was given to Brentwood employees in 
October 2001 turned out to be, at least initially given to 
these employees, turned out to be incorrect. This incorrect 
information, along with what the employees at Brentwood would 
regard as a delay in the Postal Service's closing of the 
facility generated a considerable amount of employee distrust 
of management and concern.
    The problems at Brentwood obviously make it clear, at least 
the problems that occurred back in 2001, that accurate and 
clear information to employees is critical, now even more so 
than before. Unfortunately, recently, the Postal Service 
informed the employees who are likely to return to Brentwood 
that, on the one hand in a more fortunate sense, the facility 
is safe. It has been looked at. The decontamination effort has 
taken place, the various public health and other authorities 
have looked at the test results, assessed the decontamination 
and decided and determined after review of all that information 
that the facility is safe, and we certainly have no information 
to the contrary. On the other hand, unfortunately, the Postal 
Service also told employees that there is absolutely no risk in 
returning to the facility and that the facility is 100 percent 
free of anthrax contamination. According to the Postal Service, 
unfortunately, this was an inadvertent communication that had 
not fully been reviewed throughout the Postal Service, and the 
real dilemma here is that one cannot say, according to CDC and 
other authorities, that there is absolutely no risk in 
returning to the facility and that we can be 100 percent sure 
that there is no anthrax in the facility.
    While it's likely to be very little, if any, there and it's 
likely not to be a major or a significant risk, nonetheless, 
one cannot say that there is absolutely no risk. We have 
discussed this issue with the Postal Service, and it has agreed 
to very quickly and promptly provide corrected information to 
the employees who may return, and this is important because the 
Postal Service has given these employees a choice as to whether 
to return or go to a different facility, and it will obviously 
be important that they have full and correct information before 
they return.
    With that, Mr. Chairman and Ms. Norton, I would like to 
conclude my summary statement.
    [The prepared statement of Mr. Ungar follows:]
    [GRAPHIC] [TIFF OMITTED] 91921.007
    
    [GRAPHIC] [TIFF OMITTED] 91921.008
    
    [GRAPHIC] [TIFF OMITTED] 91921.009
    
    [GRAPHIC] [TIFF OMITTED] 91921.010
    
    [GRAPHIC] [TIFF OMITTED] 91921.011
    
    [GRAPHIC] [TIFF OMITTED] 91921.012
    
    [GRAPHIC] [TIFF OMITTED] 91921.013
    
    [GRAPHIC] [TIFF OMITTED] 91921.014
    
    [GRAPHIC] [TIFF OMITTED] 91921.015
    
    [GRAPHIC] [TIFF OMITTED] 91921.016
    
    [GRAPHIC] [TIFF OMITTED] 91921.017
    
    [GRAPHIC] [TIFF OMITTED] 91921.018
    
    [GRAPHIC] [TIFF OMITTED] 91921.019
    
    [GRAPHIC] [TIFF OMITTED] 91921.020
    
    [GRAPHIC] [TIFF OMITTED] 91921.021
    
    [GRAPHIC] [TIFF OMITTED] 91921.022
    
    [GRAPHIC] [TIFF OMITTED] 91921.023
    
    [GRAPHIC] [TIFF OMITTED] 91921.024
    
    Chairman Tom Davis. Thank you very much.
    Mr. Layne.
    Mr. Layne. Mr. Chairman, members of the committee, thank 
you for the opportunity to testify today about the Occupational 
Safety and Health Administration's leadership in protecting 
workers from anthrax exposure and our role in preparing for the 
reopening of the Curseen and Morris Processing and Distribution 
Center.
    OSHA's mission is to ensure safe and healthful working 
conditions for America's working men and women. Protecting 
workers from biohazards, such as anthrax, is a critical part of 
OSHA's role and the Nation's domestic preparedness and 
emergency response efforts.
    Now, under the Occupational Safety and Health Act, it is 
the employer's responsibility to protect the health and safety 
of its workers. In 1998, an amendment to the OSH Act broadened 
the definition of an employer to include the U.S. Postal 
Service.
    OSHA has been working alongside USPS since the 
investigation into the deaths at the facility from inhalation 
anthrax spores began. OSHA joined USPS at its Joint Command 
Center shortly after it was established to provide a unified 
approach to sampling tests and decontamination for all USPS 
facilities and to coordinate those sampling and subsequent 
response actions with key stakeholders.
    OSHA also provided technical support to the Incident 
Command Center established by the USPS for the Curseen and 
Morris Center decontamination. Members of OSHA's Health 
Response Team, with specialties ranging from analytical 
microbiology to building ventilation, had been onsite at 
various times throughout the last 2 years, advising the USPS. 
In fact, the USPS air sampling plan was developed with OSHA's 
assistance. Our staff reviewed safety and health plans and 
worked with the USPS and its contractors on training procedures 
for the use of personal protective equipment, such as 
respirators. In addition to technical support, OSHA even 
ensured that employers at the site were involved in the 
remediation effort to provide a workplace free of hazards to 
their employees by ensuring compliance with applicable OSHA 
standards.
    As final plans were made to fumigate the building with 
chlorine dioxide gas, OSHA joined the USPS at its Joint 
Information Center to enhance communications about the 
decontamination work. OSHA staff also made presentations at 
town hall meetings, reminding postal employees of their right 
to file complaints about Brentwood's unsafe or unhealthy 
working conditions directly with the Occupational Safety and 
Health Administration.
    Following the decontamination in March 2003, OSHA sent a 
letter to the Incident Commander at the Curseen and Morris 
Center, expressing the agency's concurrence with the conclusion 
of USPS safety and health staff that remedial efforts had 
successfully eliminated any significant risk of anthrax disease 
for its occupants of this building, thus allowing workers to 
enter the building without respiratory protection for most of 
the activities. These conclusions were based upon sampling 
results and analysis, as well as assessment of safety and 
health plans formed by OSHA's certified industrial hygienists.
    As postal employees return to Curseen and Morris, OSHA will 
continue to respond to any safety and health complaints filed 
by its employees, as well as to requests from USPS and its 
contractors. The agency is also prepared to investigate 
accidents or any other hazardous situation that occurs at the 
facility.
    We also have broadened our outreach and informational 
activities to help employers and workers address threats of 
biological and chemical hazards. We developed and continued to 
refine sampling methods for detecting anthrax spores in the air 
and on large surfaces such as floors and walls. We created a 
Web-based ``e-tool'' that provides training and information 
about anthrax and also increased our expertise in dealing with 
threats and other incidents of national significance. We will 
soon complete our own national emergency management plan for 
OSHA's national and regional office personnel as well.
    Since September 11, 2001, we have become aware of new 
threats to workers' lives from acts of terrorism and the use of 
biotoxins as weapons of mass destruction. OSHA is continually 
evaluating and making changes to its programs to respond to 
this new threat. Postal workers have been on the front line in 
this war against terrorism and it is our responsibility to 
provide all the help that we can in protecting their lives.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Layne follows:]
    [GRAPHIC] [TIFF OMITTED] 91921.025
    
    [GRAPHIC] [TIFF OMITTED] 91921.026
    
    [GRAPHIC] [TIFF OMITTED] 91921.027
    
    [GRAPHIC] [TIFF OMITTED] 91921.028
    
    [GRAPHIC] [TIFF OMITTED] 91921.029
    
    [GRAPHIC] [TIFF OMITTED] 91921.030
    
    [GRAPHIC] [TIFF OMITTED] 91921.031
    
    Chairman Tom Davis. Thank you very much.
    Mr. Day.
    Mr. Day. Good afternoon Mr. Chairman and members of the 
committee. I appreciate the opportunity to speak with you today 
about the Postal Service's planned reentry into the Curseen-
Morris Processing and Distribution Center here in Washington, 
DC. With me today is Jerry Lane, the manager of Capital Metro 
Operations. I believe today's hearing is a reflection of your 
commitment both as individuals and as a committee to the 
cooperative process that will return this facility to safe and 
productive use for our employees and for the Brentwood 
community.
    It has been a challenging 2 years, but we have achieved our 
goal, the successful decontamination of the Curseen-Morris 
facility. While we are pleased we have come this far, we cannot 
forget the awful events that set this process in motion. Joseph 
Curseen, Jr. and Thomas Morris, Jr. tragically lost their 
lives. Many others suffered terribly when they became infected 
with anthrax. They will never be far from our minds, and that 
is why the planning processes and technology that we relied 
upon to decontaminate the Curseen-Morris facility could only be 
the best and it had to be done right.
    It became apparent very quickly that we would be writing 
the book on this subject, and it was a book on a grand scale, a 
scale of 17 million cubic feet to be precise, but we had a 
great deal of help from experts in the military, government and 
private sector. Our partners included the Armed Forces 
Radiobiology Research Institute, Centers for Disease Control 
and Prevention, District of Columbia Department of Health, U.S. 
Environment Protection Agency, and the Occupational Safety and 
Health Administration, as well as our three contractors, 
Ashland, Sabre, and Shaw. Of course, the generous help of 
Congress and the administration in making $762 million 
available to the Postal Service to respond to the anthrax 
attack was also a critical part of the success.
    The process of reclaiming the Curseen-Morris facility 
actually began on October 21, 2001, when it was closed. While 
our primary focus was the safety of our employees, we also had 
to address operational issues such as the disposition of the 1 
million pieces of mail that remained at the building. We 
arranged for the irradiation of this mail at contractor sites 
in Ohio and later New Jersey before it was returned to 
Washington for processing and delivery.
    Once the mail was removed from the building, we completely 
sealed it and developed a thorough decontamination plan. 
Qualified contractors began cleaning known contaminated 
surfaces in the building. Pumping and mixing stations were 
constructed for the chlorine dioxide that would be used for the 
decontamination. Scrubbers were used to remove the chlorine 
from the building and backup systems were put in place. We 
tested every element of our gas manufacturing, delivery, and 
scrubber system to ensure they operated properly. Safety was 
the watchword.
    An expert Environmental Clearance Committee was formed in 
July 2002 to provide an independent evaluation of our cleanup 
and testing efforts to determine if we could ultimately 
reoccupy the building. That decision would not be made by the 
Postal Service. Committee members included representatives--and 
I want to go through the list because they were of great help 
to us, although there are several to mention here--but they 
included the Office of the Chief Medical Examiner of the 
District of Columbia, The Centers' for Disease Control and 
Prevention National Institute of Occupational Safety and 
Health, the U.S. Environmental Protection Agency, the U.S. Food 
and Drug Administration, the U.S. Army Center for Health, 
Protection, and Preventive Medicine, the Occupational Health 
and Safety Administration, the District of Columbia Department 
of Health, the Armed Forces Radiobiology Research Institute, 
and the University of Minnesota School of Public Health all 
participated as ECC members.
    On December 14, 2002, fumigation began. We established and 
maintained a temperature of 75 degrees Fahrenheit and a 
relative humidity of 75 percent within the building. This was 
necessary so any anthrax spores would be receptive to the 
neutralizing ability of the chlorine dioxide gas. Chlorine 
dioxide was then pumped into the building until we reached a 
concentration of 750 parts per million, and we maintained that 
concentration level for 12 hours. Afterwards, sampling results 
confirmed that the fumigation process was successful. We used 
more than 6,000 surrogate spore strips to ensure that the 
chlorine dioxide permeated the facility. All of the surface 
samples and aggressive air samples showed no growth.
    By February 26, 2003, members of the Environmental 
Clearance Committee were able to enter the building without 
personal protective equipment and agreed, ``The fumigation of 
the Curseen-Morris facility met the criterion that the U.S. 
Postal Service and the District of Columbia established for a 
successful fumigation effort.'' That standard was no spore 
growth.
    On May 30, 2003, the ECC concluded the fumigation was 
successful and we began restoring the building. The restoration 
is now near completion. More than 600 tons of debris has been 
removed. The entire facility has been cleaned and painted, the 
medical unit replaced, restrooms rebuilt, electrical and 
telecommunications wiring replaced, cafeteria kitchen 
renovated, mail processing equipment renovated and rebuilt, 
ceiling tiles replaced, employee lockers installed, safety and 
emergency systems modernized, repaired or replaced, heating 
ventilation and air conditioning systems upgraded, the retail 
area and the office space has been modernized. And finally, I 
would note, Delivery Bar Code Sorter #17, the machine that 
processed the letters for Senators Daschle and Leahy, the most 
contaminated spot in the building, no longer exists. It was 
dismantled, removed, and shredded.
    We assigned a full-time safety professional to the facility 
to ensure a safe and healthy working environment for our 
employees and contractors renovating the facility and, in 
conjunction with OSHA, we implemented an aggressive post-
fumigation, transitional sampling program with particular 
attention to many areas that were disturbed by construction. 
More than 1,000 wet-wipe surface samples have been taken, dried 
filter units located throughout the building have been sampling 
air around construction areas, and that sampling also includes 
the use of high-efficiency, particulate air filters. Every 
sample has tested negative for anthrax. These test results are 
made available to employees every day.
    We will continue testing when operations resume at the 
facility, using air sampling in mail processing areas. A 
sophisticated sampling system will provide rapid onsite DNA 
analysis of air samples. If Baccillus anthracis is detected, 
the building will be evacuated, local health and public safety 
officials alerted, so we can quickly take appropriate action to 
protect those employees who may have been inside.
    I'd also note, given the events of the last day or so in 
Greenville, SC, we have a well-established nationwide process 
for dealing with suspicious mail. Last Wednesday, an employee 
at the Greenville, SC Airmail Facility Annex did what she had 
been trained to do: she recognized a letter that looked 
suspicious; she notified her supervisor. The letter was 
isolated and contained. Local officials were contacted, as well 
as the FBI. The HAZMAT team responded and removed the 
suspicious letter from the building. When we were contacted by 
the CDC and the FBI to let us know that they in fact found 
ricin through their testing, we then took the next steps for 24 
hours to close the facility, bring in medical officials to 
speak with all those employees that would be at the facility. I 
would point out that the entire process is a demonstration of 
how seriously we take these matters and how well the process 
can work when employees are trained and know what to look for.
    Right now, mail for delivery to Federal Government offices 
in the District of Columbia continues to be irradiated. Last 
week, we announced a proposal to locate a mail irradiation 
facility in Washington. The preferred site is on the property 
of the Curseen-Morris Processing Center. A local facility would 
reduce costs, improve delivery time and minimize logistic and 
security requirements. We will work closely with the community 
and its elected representatives as we develop this proposal.
    I am pleased to report that on September 19, the 
Environmental Clearance Committee concluded, ``. . . the 
remediation was successful, that rigorous sampling was unable 
to find any residual viable spores, that workers can safely 
return and that normal service to the public can safely 
resume.'' I certainly welcome this finding.
    Mr. Chairman, as we prepare to restore operations to the 
Curseen-Morris Processing and Distribution Center, our memory 
of those days guides what we do today. We will continue our 
efforts to explore the latest technology and process solutions 
to protect our employees, our customers and the mail.
    Mr. Chairman, I appreciate your time and interest in 
learning more about our efforts to reenter the Curseen-Morris 
facility and would be pleased to answer your questions.
    Thank you.
    [The prepared statement of Mr. Day follows:]
    [GRAPHIC] [TIFF OMITTED] 91921.032
    
    [GRAPHIC] [TIFF OMITTED] 91921.033
    
    [GRAPHIC] [TIFF OMITTED] 91921.034
    
    [GRAPHIC] [TIFF OMITTED] 91921.035
    
    [GRAPHIC] [TIFF OMITTED] 91921.036
    
    [GRAPHIC] [TIFF OMITTED] 91921.037
    
    [GRAPHIC] [TIFF OMITTED] 91921.038
    
    [GRAPHIC] [TIFF OMITTED] 91921.039
    
    [GRAPHIC] [TIFF OMITTED] 91921.040
    
    [GRAPHIC] [TIFF OMITTED] 91921.041
    
    [GRAPHIC] [TIFF OMITTED] 91921.042
    
    Chairman Tom Davis. Thank you very much.
    Mr. Lane.
    Mr. Lane. Good afternoon, Chairman Davis and members of the 
committee.
    Chairman Tom Davis. Your microphone I don't think is on.You 
have a button there. There we go.
    Mr. Lane. I'll try it again.
    Good afternoon, Chairman Davis and members of the 
committee. Thank you for this opportunity to speak with you 
today about the efforts of the Joseph Curseen, Jr. and Thomas 
Morris, Jr. Processing and Distribution Center.
    In October 2001, the U.S. Postal Service, its employees, 
and its customers, became victims of a series of unprecedented 
and insidious acts of bioterrorism. As a result, the Curseen-
Morris facility has been closed since October 21, 2001. This 
facility is a major mail processing and distribution center for 
the Washington, DC, area. Despite losing their primary mail 
processing center, Capital District employees continue to 
provide mail service to the residents of the Washington, DC, 
area, at among the best service levels ever.
    At the time the facility was closed, I was the Capital 
District manager. My office was in the Brentwood Road facility, 
so I understand anxiety and uncertainty and the concern that 
these attacks caused my employees. These are my coworkers. 
Their safety and health and the public's safety has been and 
will continue to be our paramount concern. We also worked 
closely with the Centers for Disease Control and the District 
of Columbia Department of Health to assist their efforts to 
provide medication to all employees.
    During the weeks following the anthrax attacks, public 
health officials were uncertain about the extent of the 
exposure and risk, so we supplied our employees with protective 
masks and gloves. We worked very hard to reduce the impact of 
the facility's closing on our employees. We quickly moved 
operations to alternative locations. Employees were struggling 
with new routines for getting to work, so we provided no-cost 
transportation to bring employees to these locations for the 
first 3 months. We continue to reimburse employees who drive 
beyond their normal route or who take public transportation to 
get to these temporary locations.
    We understood that communications was key. We made a point 
of communicating actively and cooperatively with everyone in 
every way involved, including the District of Columbia 
Government, our employees, their unions, and local residents 
and businesses. We participated in numerous town hall employee 
meetings, sent out community-wide mail links, provided toll-
free numbers for additional information, posted current 
information on the USPS Web site, and held weekly coordinated 
information sessions. Those employees who returned to work at 
the Curseen-Morris Processing and Distribution Center we 
offered a fit test for a mask. The use of these masks is 
strictly voluntary. We understand that some employees may 
prefer the added sense of security they provide.
    We established an extensive communication plan to ensure 
that all employees are aware of all aspects of the cleanup and 
aftermath of the Curseen Processing Distribution Center. As 
part of the communication plan, we had been providing our 
maintenance employees who had returned to the facility with 
daily safety talks, daily sampling reports, and employee 
publications on specific information about the process. There 
was also an open door policy with an onsite safety professional 
for any safety and health concerns that employees have voiced 
or immediately addressed. There has been a lot of information 
out there, and we want our employees to know what we know, when 
we know it, so the communication plan also established 
communication facilitators at all locations on all shifts who 
are responsible for disseminating stand-up talks, gathering 
questions, and maintaining the Curseen-Morris update bulletin 
boards. But sometimes employees want to ask questions of the 
experts, so we have had a number of employee town hall meetings 
as well.
    Our communication plan also included many other ways of 
providing employees with timely and accurate information. We 
provide right-to-know forms at the time clocks. Employees can 
mail the forms in and receive prompt replies to their 
questions. We established an 800 number where calls are 
returned within the next business day. A special number was 
also established for deaf and hard-of-hearing employees. We 
have held biweekly telecoms with all unions to keep them 
informed of the progress on the facility. We have given local 
unions two private tours of the facility to show them the 
progress of the restoration. As Tom Day mentioned, the 
restoration of the building includes a new medical facility 
which will have a 24-hour doctor and nurse available. We have 
held a number of focus groups with employees to discuss their 
concerns and anxiety about returning, and we will continue to 
have employee assistance counseling programs available to 
monitor employee's stress and anxiety. We will also be 
providing briefings, training, and publications on employee 
stress as we reoccupy the facility. We'll work closely with the 
Occupational Safety and Health Administration to develop a 
site-specific health and safety plan designed to ensure our 
employees' safety at the facility throughout the restoration 
and reconstruction.
    We have established a multifunctional team, including 
private sector expertise, to implement a human resource plan. 
This plan would ensure that all Curseen-Morris employees are 
provided with the information, tools and training they need to 
feel safe and be productive when they return. With this in 
mind, we have agreed with our national unions to accommodate 
all requests for permanent reassignment to other facilities.
    Our schedule calls for the administrative staff to return 
to work in late November. We anticipate retail and limited mail 
processing operations to follow within weeks. At the end of the 
day, we want this facility to be the best, the safest, and the 
finest representation of the men and women who worked there for 
so many years. A reentry committee, with employee and union 
representation, is planning a reentry ceremony which will also 
serve to dedicate the building in honor of Joseph Curseen, Jr. 
and Thomas Morris, Jr. We recognize this facility's importance 
to the local community.
    Now that the Environmental Committee has concluded that the 
fumigation was successful and employees can safely return, we 
look forward to reopening the facility and restoring it to its 
critical role of serving the people of Washington, DC, and the 
Nation.
    Thank you, Chairman Davis and the committee, and I'll be 
happy to respond to any questions.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Lane follows:]
    [GRAPHIC] [TIFF OMITTED] 91921.043
    
    [GRAPHIC] [TIFF OMITTED] 91921.044
    
    [GRAPHIC] [TIFF OMITTED] 91921.045
    
    [GRAPHIC] [TIFF OMITTED] 91921.046
    
    [GRAPHIC] [TIFF OMITTED] 91921.047
    
    [GRAPHIC] [TIFF OMITTED] 91921.048
    
    [GRAPHIC] [TIFF OMITTED] 91921.049
    
    [GRAPHIC] [TIFF OMITTED] 91921.050
    
    Chairman Tom Davis. Mr. Gordon.
    Mr. Gordon. Good afternoon, Chairman Davis, and Honorable 
Congresswoman Eleanor Holmes Norton. My name is Theodore 
Gordon. I'm the senior deputy director for environmental health 
science and regulation for the District of Columbia Department 
of Health. On behalf of Mayor Anthony Williams and Mr. James 
Buford, the director of the Department of Health, we appreciate 
the opportunity to present testimony on the reopening of the 
U.S. Postal Service's Joseph Curseen, Jr. and Thomas Morris, 
Jr. Mail Processing Distribution Center, formerly known as 
Brentwood. With me today are key staff involved in the 
decontamination and reoccupation of the Curseen-Morris 
facility.
    As has been previously noted, in October 2001, letters 
containing anthrax spores sent to the Hart Senate Office 
Building also contaminated this postal facility. Mr. Chairman, 
the Department of Health has collaborated since October 21, 
2001 to carry out the process of decontamination of the 
Curseen-Morris facility. Our comments will focus on providing 
an update of the role of the Department of Health in the 
decontamination of this facility.
    As you know, this is the largest chlorine dioxide 
fumigation process undertaken in the country. The process has 
three steps. The first step is prefumigation planning, the 
second step is chlorine dioxide fumigation of the facility, and 
the third step is postfumigation and cleaning and reoccupancy.
    Very early in the process, we at the Department of Health 
assembled the Brentwood Scientific Advisory Committee and 
charged it with assessing whether the work done at the facility 
was done according to applicable Federal and District of 
Columbia regulations and science. This included specialists in 
the fields of microbiology, engineering, medicine, 
epidemiology, toxicology, and environmental health. The 
committee included members of the postal union and community 
members from ward 5, where the facility is located. The 
Honorable Vincent Orange, Sr., councilmember for ward 5, 
council of the District of Columbia, also served as a member of 
this committee. The Department of Health contributed to each of 
the ward 5 community meetings convened by the U.S. Postal 
Service and participated in each postal worker technical 
information meeting.
    The Brentwood Scientific Committee provided advice to the 
Postal Service, with a strong commitment to reduce the risk of 
decontamination at the facility and to ensure the safety of the 
public. The major technical issues of concern to the Department 
of Health from the beginning are, one, effectiveness of the 
decontamination; two, the proper chlorine dioxide dosage; 
three, the postfumigation sampling protocols; and, four, 
shutdown authority and reoccupancy clearance.
    In this regard, we have collaborated with the U.S. Centers 
for Disease Control and Prevention, EPA, the National Institute 
for Occupational Safety and Health, Occupational Safety and 
Health Administration, and the Armed Forces Radiobiology 
Institute to review the results from the following: the 
Sampling and Analysis Plan; the wall cavity sampling 
demonstration plan; the ambient air monitoring plan; the line 
17 fumigation remedial action plan; the negative pressure plan 
testing plan; the scrubber tests, including carbon bed test; 
and the remedial action plan.
    The Department reviewed and advised the Postal Service on 
the air dispersion modeling plan and issued several permits for 
testing and operation of boilers, air handling units, and 
negative air pressure systems. We were onsite during all phases 
of the fumigation with the Environmental Protection Agency to 
monitor the air in the surrounding neighborhoods.
    In order to provide an independent evaluation to cleanup 
and testing efforts undertaken by the Postal Service in the 
Curseen-Morris Processing and Distribution Center in July 2002, 
the Department of Health agreed to partner with the Postal 
Service and experts from CDC, EPA, NIOSH, OSHA, and the 
American Armed Forces Radiobiology Institute, in establishing 
the Environmental Clearance Committee. The goal of the ECC has 
been to evaluate results for remediation to ultimately provide 
a recommendation for reoccupancy.
    I might point out that the D.C. Department of Health set a 
clearance standard at the onset before this entire process of 
non-detection. There was no anthrax prior to October 2001 and 
we will not permit anyone to occupy this building if we find 
any results of anthrax through our testing process. We have 
been successful in achieving that objective.
    The ECC consists of experts from the various technical 
disciplines representing a variety of Federal and local 
agencies and academia. A representative from the Department of 
Health and the Environmental Protection Agency served as co-
chairpersons for the ECC. Their deliberations have involved a 
number of steps and stages, numerous meetings, technical 
briefings, consultations, recommendations, and subgroup reviews 
that have been used to evaluate technical issues. The ECC 
members also visited the facility for a walk-through on 
February 26 and September 5, 2003.
    In closing, the Department of Health believes that the 
science and technology available has been used to identify and 
kill active, live anthrax spores at the Curseen-Morris 
facility. The Department remains steadfast in its commitment 
that the facility is safe for reoccupancy. We recommend 
reoccupancy of this building, and that the risk is absolutely 
minimum.
    Thank you for the opportunity to come before you and 
discuss this important effort. We'd be happy to answer any 
questions. Thank you.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Gordon follows:]
    [GRAPHIC] [TIFF OMITTED] 91921.051
    
    [GRAPHIC] [TIFF OMITTED] 91921.052
    
    [GRAPHIC] [TIFF OMITTED] 91921.053
    
    [GRAPHIC] [TIFF OMITTED] 91921.054
    
    [GRAPHIC] [TIFF OMITTED] 91921.055
    
    Chairman Tom Davis. I gather from the testimony that 
everybody feels comfortable about the new building, but nobody 
can say it's 100 percent safe; is that fair? Anybody want to 
raise their hand and say it's 100 percent safe?
    OK. Have all of you been through the building? Have all of 
you been through the building?
    Mr. Day. I've been in the building.
    Chairman Tom Davis. Ms. Norton and I would like to go 
through the building before it opens and we'd like you all to 
join us. We need to feel it's safe. I would like to see the 
facility anyway, it's a tremendous effort, and we'd like you to 
join us next week in doing that.
    Before I get to the cleanup of the building, I want to 
ask--I'm not sure who to address this to--but my understanding 
is this goes to yesterday's incident in South Carolina. My 
understanding is that the envelope that was found to contain 
ricin was indeed labeled ``ricin'' on the exterior; is that 
correct? Does anyone know?
    Mr. Day. I can speak to what I know, Mr. Chairman. The 
letter was addressed, as I understand, to DOT. It pertains to a 
dissatisfaction with some recent rules that DOT has passed in 
regards----
    Chairman Tom Davis. Right, I understand. Possibly it was a 
disgruntled worker or something.
    Mr. Day. And it was labeled that way and indicated it was 
ricin as a content, as part of the threat.
    Chairman Tom Davis. And it gets that. But the facility 
wasn't immediately closed upon it being labeled ``ricin'' was 
it?
    Mr. Day. No, it was not.
    Chairman Tom Davis. Now, if someone had called in and said, 
``there's a bomb threat,'' would the facility have been closed 
immediately or would we have stopped and looked at it?
    Mr. Day. We have different procedures, depending upon the 
threat. Just to give you some frame of reference, we've had 
over 20,000 suspicious substance incidents in the Postal 
Service over the course of the last 2 years, so better than 30 
incidents per day on average, so quite----
    Chairman Tom Davis. You would never get the mail out if you 
had to stop.
    Mr. Day. The protocol does not call for a shutdown. It does 
call for an isolation of the suspicious item and then the 
notification of local officials, which was done in this case.
    Chairman Tom Davis. OK. How much did the cleanup of the 
Curseen-Morris facility cost?
    Mr. Day. Mr. Chairman, we don't have a final number to 
date, and this also involves the testing, the cleanup, and the 
refurbishment. I would put the estimates in the $120 to $130 
million price range.
    Chairman Tom Davis. Now, how much did Congress appropriate 
extra for that, do you know?
    Mr. Day. It was part of a total appropriation. We received 
the $762 million in three pieces. There was an additional $175 
million that the President provided to the Postal Service as an 
immediate response to the anthrax attack, which was quite 
quickly spent on testing, masks, gloves, all of that. So the 
$175 millioin went rather quickly in the initial response in 
the fall of 2001.
    The additional appropriation came in two parts, an initial 
$500 million, followed by a supplemental for an $87 million 
appropriation. The cleanup costs were embedded in that total of 
$587 million. We were required by Congress to develop an 
emergency preparedness plan and gave our cost estimates as to 
what the $587 million would be spent on. Those cost estimates 
have changed dramatically since the plan was first submitted in 
March 2002. We updated it recently and we'll update it again.
    Chairman Tom Davis. I mean, one of the concerns in this 
committee is the Postal Service basically has its own 
enterprise fund, and we'd like to keep it that way. Obviously, 
for incidents like this, it shouldn't be the ratepayers. It is 
a terrorism threat and it ought to come from the general fund, 
and we would be interested in looking at this and seeing if we 
are putting this cost back on ratepayers or if this is general 
government. And we have these arguments all the time.
    Mr. Day. Mr. Chairman, we concur. We believe this is a 
unique circumstance that should not be borne by the ratepayer; 
that is, a response to a terrorist action is much more of a 
national issue than a specific Postal Service ratepayer issue. 
And in fact we have an appropriations request for the fiscal 
year 2005 budget to help us to complete the full deployment of 
the technology to provide protection to employees and 
customers.
    Chairman Tom Davis. Thank you.
    Let me ask a question of GAO. In your opinion, what's the 
most important thing the Postal Service needs to do to respond 
effectively to an emergency like this?
    Mr. Ungar. Well, first of all, to take the appropriate 
action to close the facility or evacuate the facility if that's 
what is appropriate under the circumstances, to notify 
appropriate authorities, and at the same time communicate with 
employees, making sure that it provides clear and accurate 
information, the best that it can.
    Chairman Tom Davis. Do you think communication has improved 
between the employees and the Postal Service as a result of 
this?
    Mr. Ungar. Mr. Chairman, yes, it seems to have improved 
based on what we have seen. I think a number of lessons were 
learned back in 2001. I think this most recent example I 
mentioned in my summary statement would indicate there's the 
opportunity for continuous improvement and being particularly 
careful in communications with the employees who are slated to 
return to Brentwood to recognize the sensitivities of what 
happened in 2001.
    Chairman Tom Davis. Let me ask our OSHA rep, is there any 
health risk associated with long-term exposure to any residue 
of agents used in the decontamination piece of this?
    Mr. Layne. Mr. Chairman, you're talking about the chlorine 
dioxide exposure? There is nothing there that is recognized 
that should be a concern to the employees.
    Chairman Tom Davis. OK.
    Mr. Gordon, has the District of Columbia been reimbursed 
for the costs that you incurred during the cleanup of the 
facility?
    Mr. Gordon. Not to my knowledge, Chairman Davis. Certainly, 
it's not just the Department of Health, it is the police 
department and other agencies that participated in this 
process. We were providing that information to Doctor Ghandi so 
that he can provide an adequate listing to the Postal Service.
    Chairman Tom Davis. If you could get that to Ms. Norton and 
to me at the committee, we would be very grateful for that.
    Mr. Gordon. Very good.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 91921.056
    
    Chairman Tom Davis. There shouldn't be a cost, I think Ms. 
Norton agrees with me, a cost to the city in a case like this.
    Has your Department's response to biohazards changed since 
the anthrax?
    Mr. Gordon. Oh, certainly. I mean, since the whole anthrax 
event. As you know, we've not only been involved in the 
decontamination, but we provided the antibiotic therapy for 
approximately 17,000 people, the majority of which were from 
the postal facility. Our response in dealing with these kinds 
of circumstances has changed dramatically and certainly this 
has been a best management practice for us as we move forward. 
As Tom Day indicated, we have kind of written the book on this.
    Let me say this: the collaboration which existed between 
these Federal agencies I think is unique in history. We came 
together, we clearly defined the problem, and we focused on 
resolving that problem in what I would characterize as a 
superlative manner. I'm not saying this is a rubber stamp, but 
I'm saying the scientists and the engineers came together and 
we focused and we worked hard to do and apply the science in 
this country, and I think that is what we achieved.
    Chairman Tom Davis. Has there ever in history been an issue 
before where anthrax was sent through the mail?
    Mr. Gordon. Not to my knowledge, no.
    Chairman Tom Davis. Anyone? So you really live and learn, 
basically.
    OK. Let me ask the Postal Service, can the equipment that 
you're planning to install now detect hazards other than 
anthrax? Would it detect ricin, for example?
    Mr. Day. Mr. Chairman, it can detect other biological 
hazards. The system that we worked to develop with our 
suppliers is capable of multiple threat detection. It obviously 
was developed initially for anthrax, but it is capable, and we 
are working toward multiple threat detection. Ricin is not a 
biohazard. It is actually a toxin. It's actually a protein. If 
there is residual DNA content from the castor bean from which 
it is produced from, you can sample for that DNA content. 
However, a purified form of ricin, which is truly where the 
threat comes from, is not detectable by this kind of PCR-based 
DNA analysis.
    Chairman Tom Davis. Now, we're going to hear testimony 
later from the American Postal Workers Union that the biohazard 
detection equipment you're planning to install is not going to 
be used on presorted mail. I guess because pre- sorted mail has 
an identifiable sender, terrorists would generally be deterred 
from using it. Is that the rationale, in terms of costs and 
cost benefits?
    Mr. Day. Mr. Chairman, as part of our emergency 
preparedness plan there is a vulnerability threat and 
consequence management assessment we perform. That's a 
classified document, so we have not put it in the public 
domain. We went through and assessed 162 scenarios, and when 
you go back and look at biological threats such as anthrax, 
presorted mail, mail produced in bulk quantity, while not 
impossible to contaminate, is highly improbable and an 
impracticable vector for attack. It would be virtually 
impossible to do a targeted attack, and the method by which you 
would do it would likely contaminate the facility where the 
mail was produced and affect those employees. And you also have 
the issue that you already pointed out of a known shipper. So 
there are a number of reasons why, although possible, that is 
not a very practicable way to do it.
    Chairman Tom Davis. Thanks.
    I also understand that the employees have asked for medical 
and mental health professionals to be onsite when employees 
return. Does the Postal Service have a position on that 
request?
    Mr. Lane. Yes. Yes, Chairman. In fact, we have plans to 
have 24-hour doctors and nurses available to them.
    Chairman Tom Davis. Onsite, or just available?
    Mr. Lane. Onsite.
    Chairman Tom Davis. OK. What kind of training do employees 
receive for responding to an emergency like a bioterrorist 
attack? Obviously, when you look at this incident you have to 
refocus your orientation and your training. Are they getting 
additional training, now?
    Mr. Day. Nationwide, yes. We have defined protocols. We 
have always had hazardous material response teams, typically 
from within our maintenance crafts of employees that have been 
available to deal with this, particularly at our processing 
centers, but there's been an increased focus on what to look 
for in suspicious mail items. And again I would point out, with 
over 20,000 reported incidents over the last 2 years, we 
obviously have employees who have been trained to and do pay 
attention. Again, the most recent incident that was reported in 
the media yesterday was the direct result of an employee who 
was paying attention and did the right thing.
    Chairman Tom Davis. Thank you. Those are my questions.
    Ms. Norton.
    Ms. Norton. Thank you very much, Chairman Davis.
    We really need more information about how you would handle 
a contaminated item that wasn't labeled. We congratulate you on 
dealing, apparently expeditiously, with ricin. It certainly 
helps restore our confidence. But, of course, it says ``ricin'' 
right on the label; so it's not hard to detect by the Postal 
Service, when obviously someone was trying to let you know that 
it was something dangerous, and you had to see if it was 
dangerous at all, and you found out it was dangerous.
    Suppose the ricin had not been labeled. How would it ever 
have been detected?
    Mr. Day. Let me first point out that, again, with the 
number of incidents we have had, the overwhelming majority are 
not because it's labeled as anthrax, ricin, or anything else.
    Ms. Norton. Have you found ricin before?
    Mr. Day. No, we have not.
    The fact is that our employees have been trained on some of 
the specific things to look for on what might be suspicious.
    Ms. Norton. Have they been trained to look for ricin?
    Mr. Day. They're trained to look for suspicious things 
coming out of the envelope or mail piece and what the 
characteristics might be.
    Ms. Norton. Did this come out of the envelope?
    Mr. Day. Excuse me?
    Ms. Norton. Did the ricin come out of the envelope?
    Mr. Day. No. I would tell you that if it wasn't labeled, 
other than the fact that it didn't have postage on it--which 
obviously would have brought our attention to it--and the way 
it potentially was addressed, there was nothing about the way 
it was made up or anything spilling out of it that would've 
brought it to our attention.
    Ms. Norton. If it had continued as an envelope, at first 
the Postal Service and the CDC thought that anthrax couldn't 
come through the envelope, and of course the facility wasn't 
shut down. Can ricin come through the envelope? And, if it 
does, what happens?
    Mr. Day. Ricin is one of the----
    Ms. Norton. Maybe I should ask Mr. Gordon as well to chime 
in here.
    Mr. Day. I can just tell you from our threat assessment 
ricin is possible, but it is viewed as one of the impractical 
means to be sent through the mail. But it is possible.
    Ms. Norton. Well, it was sent through the mail this time, 
Mr. Day, so I'm not talking Brentwood as a hypothetical here.
    Mr. Gordon. Congresswoman Norton, it is possible, but it is 
very improbable that you would have the same type of dispersion 
and distribution that you would have with anthrax spores.
    Ms. Norton. Suppose some came through an envelope? Could it 
harm an individual? I mean, can you inhale it? I'm just trying 
to find out what the threat is there when you don't know what 
the substance is.
    Mr. Gordon. I think through an envelope the risk is much 
more minimal.
    Ms. Norton. Than with anthrax?
    Mr. Gordon. Absolutely.
    Ms. Norton. How does it poison people? What are its 
symptoms? What does it do to you?
    Mr. Gordon. It's a protein process. It can affect the 
central nervous system, it can affect the lungs, it can cause 
cardiopulmonary distress on someone who may have some clinical 
problems.
    Ms. Norton. So normally would you breathe it or would it 
have to get on your body?
    Mr. Gordon. You could breathe it and/or skin absorption. 
There are three pathways: inhalation, skin absorption, and 
ingestion. Those are the three pathways from which it could 
cause problems.
    Ms. Norton. But you think pretty much it would have to get 
out of the envelope?
    Mr. Gordon. Yes and you'd have to have what we characterize 
as a substantial bioload and exposure, like we did with 
anthrax, and I don't think you have ricin as the type of 
substance that has the same dispersion capability as anthrax.
    Ms. Norton. Mr. Gordon, who has anthrax? Who has access to 
ricin in this country?
    Mr. Gordon. Who?
    Ms. Norton. I mean, do laboratories have it? Is it a 
prohibited substance so it's hard to get ahold of? Is it easy 
to get ahold of?
    Mr. Day. Congresswoman Norton, from what I understand, 
ricin is produced from the castor bean. The technology required 
to refine the ricin from the castor bean is not overly 
sophisticated. However, getting it into a weaponized form is a 
bit more of a challenge, so it is not a controlled substance. 
It is something which a person with a level of knowledge, not 
overly sophisticated, could produce from a castor bean.
    Ms. Norton. I suppose now that we've had this tragic 
episode involving anthrax there are all kinds of precautions 
that have been taken here. But, very frankly, the President and 
Congress and Federal officials now are perhaps as much 
concerned about substances that haven't yet come into the 
mails. We are concerned about bioterrorism.
    So I've got to ask you about other toxins and chemicals and 
things like--you know, we got the bejesus scared out of us 
about smallpox until we found that it perhaps caused more harm 
than not to try to vaccinate everybody. But I would like to ask 
you about other substances that may come through the mail and 
whether the--quite apart from anthrax, whether you're prepared 
for other substances that may come in the mail, just as ricin 
has come through the mail just this week. So what in the 
world--how are you prepared?
    Mr. Gordon. I'd like to just give some clarity to your 
earlier question and give you some additional information.
    Ricin is a chemical. It is not a bacteria. Anthrax is a 
bacteria which is microscopic and went through the envelope 
itself because of its porousness. Ricin is a chemical compound 
that is derived through various methods, very rudimentary, as 
Tom Day has indicated. You would have to have a substantial 
amount of this chemical for someone either to inhale or ingest 
in order to become a major risk factor.
    Ms. Norton. So more than anthrax.
    Mr. Gordon. Substantially more than anthrax. There are no 
bioloads, Congresswoman Norton, for anthrax. In other words, 
one of the difficulties and challenges that we had and why we 
set a nondetect level for Brentwood is, there is no exposure 
dose ratio set in the United States for anthrax. A person who 
may be exposed to 1 or 10 spores can contract the disease 
versus 100 spores. So, therefore, the standard of nondetect is 
what is important.
    Ms. Norton. Mr. Day, you're aware that a woman who--an 
employee who worked within feet of one of the employees who 
died found a suspicious letter that had powder in it, came to 
supervisors and spoke about it. It turned out to be false 
positive, but she was turned back.
    I want to know, if somebody came with such a letter today--
I mean, she's very fortunate it wasn't that, because she knew 
somebody was ill; and there are all kinds of concerns that were 
raised that there were some supervisors who reprimanded 
employees when the numbers went down immediately following the 
incident, but nothing has been found. People were reassured to 
go back to work, get your work done.
    I want to know what happens when somebody comes with maybe 
a false positive and says, ``this envelope looks to me like it 
could contain something.'' And we know that the chances are, 
you know, 99.9 percent perhaps that it won't, but I want to 
know what if she has in hand something, what the Postal Service 
says to that employee. You and Mr. Lane tell me, whoever is in 
the best position to tell me what your regulations now tell me 
should happen.
    Mr. Day. We have a defined process and procedure on how to 
handle such an event.
    First of all, I would point out the first part, that we 
have told employees and hopefully they will follow, is that 
they wouldn't have it in their hand.
    Ms. Norton. So what would they do?
    Mr. Day. If they have a mail piece that is suspicious or 
has powdery substances coming out of it, they are to identify 
where it is and notify a supervisor or manager.
    Ms. Norton. Now is this training that has now been given in 
Brentwood and to postal employees throughout the United States 
what you're just telling me?
    Mr. Day. That training has been provided over the course of 
well over a year. The process has been defined, employees have 
been trained.
    Ms. Norton. So ``don't touch it'' is what they're told.
    Mr. Day. ``Do not touch. Notify, isolate and notify local 
authorities.'' The Postal Inspection Service becomes involved 
as well as local officials.
    Again, we have had over 20,000 incidents Postal Service-
wide in the course of the last 2 years. We've experienced some 
level of facility shutdown as we've dealt with suspicious 
items.
    Ms. Norton. Thank you very much.
    Now I'm concerned about information that is beginning to 
emerge about the slow close-down, the delayed close-down; and, 
of course, the Postal Service has said, well, you know, ``the 
CDC made me do it.'' Would you rely on the CDC today? You know, 
``we went to the scientists, and they said it wasn't 
necessary,'' is what we were told over and over again. Would 
you rely on the CDC today or would you close down a facility 
even without CDC or other scientific affirmation?
    Mr. Day. Congresswoman, we must rely upon public health and 
medical experts. The example of the Greenville, SC, situation--
I, along with other senior managers in the Postal Service, were 
involved in telephone conversations with Homeland Security, the 
CDC and the FBI. We jointly made that decision. We must----
    Ms. Norton. Did they look at the substance first?
    Mr. Day. Excuse me?
    Ms. Norton. Did they test the substance first?
    Mr. Day. They came to us and let us know that they had 
trace amounts of ricin. We then had a discussion about--as they 
indicated to us, they found the trace amounts, but the vial was 
sealed. We had a discussion about what was prudent to do.
    Ms. Norton. So, you know, once again they said, ``look, you 
know, it's sealed. We haven't had time to test it.'' But----
    Mr. Day. We jointly reached the conclusion that we needed 
to close the facility, get public health people there talking 
to employees and test the facility.
    Ms. Norton. How soon after the discovery was the facility 
closed?
    Mr. Day. The discovery, we found it last week. CDC came 
back to us with the positive results in the last 24 hours. 
That's when we reacted, when we had a result.
    Ms. Norton. So you found it last week. You didn't know--of 
course, they said it was ricin. Last week on what day?
    Mr. Day. It was last Wednesday, the 15th, I believe.
    Ms. Norton. And it was closed down when?
    Mr. Day. We closed it down yesterday. So a week. But right 
the same day that we were notified that we had some result that 
indicated there was a problem, up to that point it had been 
removed from the facility, and nothing had been indicated. It 
was just like many other incidents we had.
    Ms. Norton. So you waited until it was tested? Is that why 
you waited that long?
    Mr. Day. You have to. You have to get a result to 
understand what you've got.
    Ms. Norton. Well, that's exactly what the CDC said.
    Look, you know, I'm concerned. That concerns me. The thing 
said ``ricin.'' I could understand if you had an unidentified 
envelope. The thing said ``ricin.'' It could have been a prank, 
but what is this almost a week that you waited to close down 
the facility? I mean, that's of some concern. I don't know if 
there's overdependence on scientific experts as there was in 
CDC--as there was a dependence on CDC or what. But let me--you 
seem to have--and I think I am going to ask you to look far 
more closely at what you do, particularly if you have a labeled 
matter. Now I don't want to indicate that every labeled 
matter--but, apparently, even in your conversations they told 
you there was residue. There appeared to be residue there, and 
you didn't close it. Oh, that didn't happen until a week later.
    Mr. Day. We found out yesterday what they had sampled. We 
had nothing prior to that.
    Ms. Norton. Except the label.
    Mr. Day. Just--and, unfortunately, Congresswoman, we get 
things sent through the mail that have any number of anonymous 
hoaxes written on them. That, unfortunately, is too 
commonplace.
    Ms. Norton. OK. Mr. Day, I'm going to assume from what I 
heard from Dr. Gordon that what is generally known about ricin 
would mean that knowing only that this was labeled ricin, 
knowing what at least he informs us about the nature of ricin 
and its ability to contaminate far less than anthrax, that may 
have been a reasonable decision not to shut down for that 
period of time. I'm really not trying at all to show you didn't 
do the right thing. I am trying to be reassured and to reassure 
members of the public and the employees that we are today using 
the best we have.
    Now I have a question about your own policies and 
regulations. Four days after the anthrax letter was opened on 
Capitol Hill--and the date I'm looking at is October 19, 2001--
the Postal Service apparently issued a policy, a written 
policy. As I am informed, it stated that the discovery of a 
suspicious or unopened envelope should trigger the shutdown of 
equipment and evacuation, cordoning off the area. That's what 
your own regulation said. Now you were aware that the Daschle 
letter had passed through that facility on October 15th, so 
responding by the 19th you had new regulations. That's very 
good. That's a quick response in writing. However, the facility 
itself was not shut down. In fact, it was kept running 24 hours 
a day, 7 days a week, and there were 2,000 employees in that 
building, approximately. To me, this says you weren't following 
your own regulations, despite the fact that a letter had been 
found here and everybody knew that letter went through 
Brentwood. I want to know, in light of that, in light of your 
own written response, why there was a delay in shutting down 
that facility, given what you knew about that letter, that 
Daschle letter on Capitol Hill.
    Mr. Day. Yes, ma'am. Let me just clarify. What we put out 
on October 19--and I don't specifically remember that date or 
what was issued that day, but I can tell you there were 
existing policies in the Postal Service, something which I 
specifically remember. Because a year and a half prior, as a 
district manager in southeast New England, we had gone through 
a simulation of an anthrax event.
    Ms. Norton. So you had existing policies plus a new policy. 
The one I'm interested in is the one that says, ``shut down the 
place; cordon off the area.''
    Mr. Day. But let me be clear on what the policy was and 
what we knew on how this worked. On October 19, the examination 
policy and the clarification spoke to shutting down the 
facility where the letter was found. The concept of a trail of 
contamination was not known on the 19th. The letter in 
question, the Daschle letter, was in the Hart building, which 
was shut down; that's in full conformance. We didn't have the 
concept--history now tells us much differently, and our 
policies have changed to reflect that, but what we didn't know 
on the 19th was that there was a trail of contamination that 
went back upstream.
    Ms. Norton. Well, wait a minute. You did close--you did 
know enough, apparently, to close the Trenton postal facility--
--
    Mr. Day. The Trenton postal facility.
    Ms. Norton [continuing]. And you certainly knew enough to 
close the Capitol Hill mail facility. One's an upstream. 
Capitol Hill is a downstream. Yet, Brentwood, which is 
midstream, remained open on the 19th, the 20th, and part of the 
21st. Why shouldn't we conclude that Brentwood was treated 
differently from these other facilities, and why was it treated 
differently, if you were so quick to close down upstream and 
downstream and here's Brentwood in the middle of it and not 
closed down?
    Mr. Day. Take it on either end. In Trenton, on October 18, 
you have the first incident of a postal employee, a letter 
carrier, who was diagnosed as suffering from cutaneous anthrax. 
In dealing with local public health officials in the State of 
New Jersey, specifically Dr. Ed Bresnet, a decision was made. 
Given the specific known issue of an employee of the Postal 
Service with cutaneous anthrax, that facility was closed.
    Ms. Norton. How many hints do you need?
    Mr. Day. Unfortunately, we did not----
    Ms. Norton. This person had anthrax. He's upstream.
    Mr. Day. No. No. That's not upstream. That is at the 
source. That's where it occurred. And in turn, again, working 
with local public health officials, we had not yet come to that 
conclusion. That was not the advice I think Mr. Ungar----
    Ms. Norton. Had not yet come to the conclusion that it 
could travel.
    Mr. Day. That we had this path of contamination.
    Ms. Norton. That what? I'm sorry.
    Mr. Day. There is a path of contamination.
    Ms. Norton. First of all, what did we learn about that 
employee at that time? The postal carrier?
    Mr. Day. Up in New Jersey?
    Ms. Norton. Yes.
    Mr. Day. That specific carrier was suffering from a case of 
cutaneous anthrax.
    Ms. Norton. OK. He had it.
    Mr. Day. She had it, yes, at that facility; and so there 
was advice from local public health officials to close Trenton, 
NJ. We were responsive to what public health officials advised 
us to do. In New Jersey, on the 18th, given that case, we 
closed. When Mr. Morris, Mr. Curseen, Mr. Richmond were 
diagnosed over the course of the weekend of the 20th and 21st 
then, in turn, public health officials said we needed to close. 
We did that. We did not know that on the 19th.
    Ms. Norton. All right. Again, once you get--I don't know 
what to tell you, Mr. Day, but if there are deaths around me, I 
then begin to look very closely at what had been the existing 
knowledge. And I recognize that was--that's a postal carrier 
who had a letter, right? We believe he had the letter. Now we 
believe that somebody--we now know at least two people in 
Brentwood had a letter. Again, I don't find it hard to connect 
these dots.
    Mr. Day. Not on the 19th, though, Congresswoman. The only 
death as of October 19 was Mr. Stevens in Boca Raton, FL, at 
AMI. Then you had a series of cutaneous anthrax cases that took 
place in New York City in the newsrooms of several network TV 
stations as well as the New York Post. So when you look at the 
dates, on the 19th, you do not have, other than the first 
employee in Trenton, NJ, a case of anthrax. The first cases 
diagnosed here in the Washington area occurred over the course 
of the weekend, the 20th and 21st.
    Ms. Norton. Mr. Day, what I'm looking at is that people who 
handled mail clearly got anthrax, ergo, somebody in Brentwood 
has handled mail, and yet Brentwood is not closed. Moreover, 
the Capitol Hill facility, downstream, was closed. Why? They 
handled mail. But so did somebody in Brentwood, and perhaps 
more people than we know.
    Mr. Day. But that's at the end of the stream where you've 
got the mailroom and Senator Daschle's administrative aide. 
You're at the end of the trail, and that's why that's closed. 
Congresswoman, I agree with you totally. In hindsight, again, 
we would have done this. It wasn't known at the time. If that's 
what CDC or anyone else had advised us was the right thing to 
do, we would have done it. We did it in New Jersey. When public 
health said ``close,'' we closed.
    Chairman Tom Davis. And you won't do it again.
    Mr. Day. Absolutely. I think we all understand how anthrax 
and biohazards can come out. Our process and protocol calls now 
for when detection occurs we will shut down the facility and 
work with local public health.
    Ms. Norton. Just let me say why I am still dissatisfied. 
When--because there had been anthrax deaths occur--that 
occurred in people who had handled mail, or anthrax, if not 
deaths. Because people had gotten anthrax from handling mail, 
because mail had clearly been handled in the Daschle office 
and, therefore, in the Brentwood office seems to me that, 
regardless of where the scientific folks are, give them time to 
figure it out, but you have enough real live evidence, quite 
apart from any analysis, that there may be danger in a 
particular facility where people have handled anthrax. That's 
what I want to be assured of, that if, in fact, people can 
connect those dots, you will not do what you did with the CDC. 
``We waited for them, our hands are clean, and we did what the 
scientists told us.''
    I'm looking for some fail check, and I tell you the best 
fail check I can think of: ``Somebody got sick in a facility 
that handled this.'' I don't want to know anything else except 
will somebody get sick here who is handling the very same 
substance?
    Now I would ask that the Postal Service consider what I am 
saying. I'm not talking about not depending on the scientific 
evidence. I understand that can take time. I'm saying, 
depending on real evidence that, by analogy, could likely apply 
to this facility, even though it isn't in this facility. I hope 
I am clear, and I'd like to know if the Postal Service is 
willing to consider this chain of--this chain problem I'm 
talking about where you have to figure it out even though you 
don't have the substance tested.
    Mr. Day. Congresswoman, I would tell you--let's speak to a 
real-world example where we learned our lesson. We established 
new protocols, and we implemented them.
    This past year at the Federal Reserve here in Washington 
they reported to us back in January that they had a preliminary 
positive on a piece of mail at the Fed for anthrax 
contamination. We, in fact, specifically reacted to it. We knew 
the trail of mail that would have followed. We went to the V 
Street facility where we process government mail. That facility 
was closed. I personally was involved with the notification to 
the public. Jerry Lane personally notified the employees. We 
shut down the facility, we got it tested, we made sure we took 
care of it.
    Ms. Norton. What about Brentwood, in that instance?
    Mr. Day. Excuse me?
    Ms. Norton. What about Brentwood? Did it go through 
Brentwood?
    Mr. Day. No, it did not. We followed the trail. It was 
processed at the V Street annex. So that's not theory, that's a 
real-world case----
    Ms. Norton. Well, I just gave you a real-world case, and 
you have not satisfied me with respect to that real-world case. 
I congratulate you on the real world and, as you say, we have 
learned our lesson. I do want to know whether or not we are 
also dealing with an analytic process whereby you have to do 
what the physicians do. Physicians often diagnose without 
having the scientific evidence. They have to put it together, 
and that's essentially the kind of process I'm asking you also 
to use.
    Mr. Ungar.
    Mr. Ungar. Ms. Norton, I just wanted to mention that our 
testimony today was based on our work at Brentwood, which was 
part of a larger review we were doing of the Postal Service and 
other authorities' reactions to the incidents in 2001 in 
several major postal facilities. And as part of that review, 
what we would like to do is take a look at the revised postal 
guidance for dealing with these situations to see whether it 
would indeed cover the type of situation that occurred back 
then. So we do hope to report on that within the next few 
months.
    Ms. Norton. I very much appreciate that, because, you know, 
I'm hearing a little bit of fighting the last war here. We've 
got to think proactively of ``what if'' and we have to look 
specifically for a very different situation than we found.
    Mr. Chairman, I apologize for taking this time, but I 
wonder if I could have the time to pursue this matter further.
    Chairman Tom Davis. Of course. Without objection.
    Ms. Norton. I am now concerned--I now want to be--I now 
want to ask you about other substances. Because CDC has long-
existing regulations going back to 1980, as I understand it, 
and included anthrax. There must be--for example, anthrax, if 
you're sending it lawfully, must be in a three-layered 
packaging and the rest. It's all quite correct, scientifically 
correct.
    We know that researchers--we know this renowned scientist 
who was just arrested and is being investigated because he just 
carried stuff with him, so we know that, you know, that 
researchers may just be becoming aware of what you're supposed 
to do; and many have obviously not been following these 
regulations in one form or fashion. But I am concerned, Dr. 
Gordon, that these regulations--these CDC regulations said 
that, even if taped and sealed--and the Daschle letter was 
quite visibly taped and sealed--there still would probably be a 
leak of anthrax. Yet we were told nobody knew that, even though 
these regulations from the CDC said you'd better, you know, 
seal all this stuff up because, even if you do, there could be 
a leak. Why didn't--I mean, they claimed not to know--the 
Postal Service claims not to have known, and here in their own 
regulations they warn that a layered envelope all buttoned up 
could leak. How did this occur?
    Mr. Gordon. Well, certainly I can only give you--
theoretically, anthrax, as you may or may not know, is a 
ubiquitous organism that is commonly around us. It's in the 
soil; it's out there. The difference between the anthrax that 
went through the mail service processing area is that this 
stuff was man-prepared. It was a highly refined type of anthrax 
that literally defied gravity in terms of its dispersion 
capability.
    Ms. Norton. So that's what they had in mind when they said 
it would probably leak even if it was taped and sealed.
    Mr. Gordon. That's correct. And being as highly refined as 
it was, certainly, the--I don't think anyone anticipated that 
the porousness of the envelopes were such that it could come 
through the envelope. It's our understanding----
    Ms. Norton. Then why did the regulations say that, even if 
taped and sealed, it would probably leak anthrax?
    Mr. Gordon. Well, that's something, Congresswoman, you're 
going to have to ask CDC. It doesn't make much sense, other 
than that the porousness of the envelope would leak it, being 
highly refined it would leak even that much more. And that's 
exactly what happened. It came through the envelope, and when 
it hit the dusting machines with the air, it aerosolized it, 
and it distributed it throughout the Brentwood facility. Your 
question is excellent. Why it wasn't thought of before, I don't 
know. It's one of the issues that we raised with the Department 
of Health--Dr. Walks and I raised it--that it would be common 
for us to understand that bacteria that highly refined would 
come right through that.
    Ms. Norton. Well, they understood it enough to put it in 
their regulations, but they didn't understand it enough to tell 
the Postal Service.
    Let me go further and move on. I need to know how you know, 
if you do, Mr. Day, that there is no risk to employees from the 
new irradiation facility that will be located, as I understand 
it, on the Brentwood grounds.
    Mr. Day. Let me say a few words about irradiation. I would 
preface it by saying that when you get into a very specific 
scientific discussion I'm not aware of really anybody that 
would describe anything as no risk, 100 percent certainty, zero 
risk.
    Ms. Norton. You're right. There's always risk. There's risk 
in breathing just air. So I'm not talking--I'm trying to be 
reasonable, Mr. Day.
    Mr. Day. There is, however, because of----
    Ms. Norton. I mean, even the GAO leaves us with the fact 
that--everybody protects their butt, and if they say 100 
percent then they are afraid somebody will come back and say 
they found 1/10th of 1 percent.
    Mr. Day. And that's the issue. So no one claims no risk. 
Low risk, however, I think is reasonable. Irradiation 
technology has been around for decades. It's been used for food 
processing, medical sterilization, it's got a number of 
industrial uses; and so it is well known, well understood. The 
ability to properly build a facility that is as low risk as 
anyone possibly can build one is well understood.
    The facility we currently use in New Jersey, is owned and 
operated by IBA, Ion Beam Applications actually, a firm out of 
Belgium. The facility is one that I've driven by many times. 
I've been into it. It's immediately adjacent to Route 295 in 
New Jersey. There are literally thousands upon thousands of 
vehicles that drive by that facility within 100, 150 feet. 
Irradiation is understood. The procedures to make it safe are 
understood, and it's well regulated.
    Ms. Norton. It's not unlike the facility in New Jersey 
where we now send mail to?
    Mr. Day. It would be custom-designed for the particular 
aspect of irradiating mail. The facility in New Jersey had a 
more industrial use although we put mail through it. This 
facility will be built just for mail. But, most importantly, 
what you have with irradiation is very thick concrete or steel 
walls or some combination that prevent any of that irradiation 
from being harmful to anyone outside the facility.
    Ms. Norton. And this is located in a remote corner of the 
facility of the area.
    Mr. Day. It's located in the most remote corner. For those 
familiar with the site, if you're looking at the front of our 
building where the retail is, it would be off to the left, to 
the left of the auto auction facility that's across the street 
from us, bounded somewhat by New York Avenue and with all of 
the train tracks behind it. So it's on the most remote portion 
of our property away--the farthest away from any residence. So 
it's quite a distance away from any residential properties.
    Ms. Norton. Will OSHA be testing this facility----
    Mr. Layne. Yes, ma'am.
    Ms. Norton [continuing]. This irradiation facility?
    Mr. Layne. Yes. We are prepared to continue on with our 
work with USPS to address any concerns that employees have 
about unsafe or unhealthful working conditions, and all of 
those will be evaluated. We're currently still working with the 
USPS and evaluating all the samples that they're getting, and 
so we will continue to work with them to address any potential 
unsafe or unhealthful working conditions.
    Ms. Norton. Today, Mr. Lane, Mr. Day--I don't know who can 
answer this question--who would have the final say on closing 
down Brentwood in this city?
    Mr. Day. If we were----
    Ms. Norton. How's the chain of command work? Who makes that 
call?
    Mr. Day. Ultimately, it remains with the agencies of the 
Postal Service. We certainly seek the advice of other agencies 
such as CDC. We work with Homeland Security in the case of 
South Carolina where there's some aspect that might suggest 
terrorism.
    I can tell you, as we deploy our new technology there is a 
predetermined protocol that the new system we are putting in 
place, that if we get a confirmed result from that it, in fact, 
has found the DNA structure of anthrax, it's not really a 
decision. The protocol just flat out says we close down. We 
remove the sample; we take it to a certified CDC lab for final 
confirmation.
    So we have a facility that's closed, a facility that has 
the machinery shut down, the employees taken out; and then if 
we get a confirmed result we're working with public health to 
follow a medical protocol. So it's very defined, it takes 
decisionmaking upfront. It's all decided by the protocols.
    Ms. Norton. You wanted to say something on that, Mr. 
Gordon.
    Mr. Gordon. Yes. From the District of Columbia's 
standpoint, if we felt that a postal facility or any other 
facility located in our community represented an immediate 
public health threat, we would request that the Mayor declare a 
public health emergency; and we would then move forward to 
request the facility's closure.
    Ms. Norton. One of the great concerns here has been 
information, and I know how much work you have done on the 
communication issue. But I have a question for Mr. Layne in 
that regard because of OSHA regulations. Because OSHA 
regulations don't require--we're dealing here with a 
nationwide--potentially nationwide problem, and the OSHA 
regulations don't require the disclosure to workers of 
contamination or of the test results of contamination, I don't 
understand how that is appropriate. As I read your regulations, 
they allow management 14 days to communicate potentially deadly 
contamination to workers.
    Mr. Layne. That is the existing requirement under 29 CFR 
1910.1020, which is our access to Medical Records Standard; and 
that's the regulation as it exists now. Certainly, under the 
Occupational Safety and Health Act, if employees believe that 
there is some condition that--or information that should be 
made available to them, they can contact the local office, but 
the responsibility for providing a safe and healthful workplace 
lies with the employer under the Occupational Safety and Health 
Act.
    Ms. Norton. Yeah, but they're going to look to that 
regulation.
    Mr. Ungar.
    Mr. Ungar. Yes, Ms. Norton. We identified this dilemma in 
the review that we recently completed at the Wallingford 
Connecticut facility, and we did make a very explicit 
recommendation to OSHA to take a look at that regulation 
because of the very issue that you just raised, that an 
employee has to ask for the information first. In response, 
OSHA did agree to relook at that regulation. We haven't heard 
from OSHA yet whether they are going to change it, but they did 
agree to revisit that regulation.
    Ms. Norton. Mr. Layne, are you in the process of revising 
these regulations now based on the experience?
    Mr. Layne. Yes, ma'am. We are evaluating the regulation 
based upon the recommendation from the GAO, and we responded 
back in July 2003 that's exactly what we are doing.
    Ms. Norton. Well, when can we expect revised regulations, 
Mr. Layne?
    Mr. Layne. I don't have that answer for you. I'll be happy 
to answer you, provide a response later. I don't have the 
answer to that.
    Ms. Norton. Would you provide a response to the chairman 
within a week so that we know when your goal is? I didn't ask 
you when you have--when is your goal to come forward with 
regulation. That is something I'm asking you to give the 
committee.
    Mr. Layne. Under the Occupational Safety and Health Act, 
there is a very detailed process about rulemaking that has to 
go through a very public----
    Ms. Norton. Are you in the process of rulemaking now?
    Mr. Layne. We're responding to the GAO report. We're 
looking to see what is the best way to make the regulations.
    Chairman Tom Davis. Mr. Layne, she just wants an 
approximation. You can go back and review it in a week and give 
us a ball park.
    Mr. Layne. I don't have an answer for you right now.
    Ms. Norton. I can understand you might not have it sitting 
right here. You see, the way in which the government works, 
it's perfectly reasonable for an employer, including the 
Federal Government, to look at your regulations, to decide 
whether or not the employer is doing the right thing. After 
all, the employer is not sure. He doesn't want to panic 
employees. And yet he knows that his union or his employees are 
going to say, ``Why didn't you tell me?'' To avoid 
recrimination, you may want to look at giving more discretion 
to the employer. You may want to look at a shorter timeframe. 
But all we need to know is when you expect the process to have 
something. And I'm sure that your agency sets goals for when 
they want to do something, recognizing that those goals cannot 
always be kept.
    Mr. Layne. Yes, ma'am, we will.
    Ms. Norton. Thank you very much.
    Now I--Mr. Gordon, D.C. General is closed. It was, of 
course, indispensable at the time because it was set up almost 
immediately to receive people who got Cipro and to handle 
people's--at least initially, their health concerns. What would 
happen today if we had an episode? Where would people go?
    Mr. Gordon. We would still be prepared, if necessary, to 
operationalize D.C. General Hospital. While the hospital hasn't 
been operated, as you know, we have our health care safety net 
unit there. The rest of the facility's integrity has been 
maintained. It's not a situation that is crumbling down around 
our knees. We would operationalize D.C. General Hospital. We 
would also--we do have other alternative sites as part of our 
emergency response plan that we could provide to you.
    Ms. Norton. What are those sites, please?
    Mr. Gordon. I would prefer to provide that to you under 
separate cover because of the very nature of bioterrorism and 
where we would operationalize----
    Ms. Norton. Well, they already know about D.C. General. So 
what are you keeping from us all?
    Mr. Gordon. Well, certainly we would have access to the 
Armory there. The Office of Emergency Management, the 
Department of Health is prepared to set up emergency medical 
tech operations on property adjacent to D.C. General Hospital 
and other locations throughout the city as part of our 
emergency response plan. We feel that we're very capable now to 
respond to these types of events. Our experience has been 
enormous, as you know, operationalizing D.C. General Hospital; 
and treating 17,000 people is not an easy task. I was there.
    But I can also tell you that there are a lot of other 
parts, such as mental health counseling, that went on from our 
mental health department. The Postal Service's participation in 
working with Postal Service employees and helping them get 
through their tremendous effort was absolutely superb. We 
couldn't have done it without Postal's coordination and 
assistance and other offices of the Federal Government. And 
based on those lessons and how we operated, certainly we feel 
comfortable if we had to operationalize and treat we could do 
that in rapid deployment.
    Ms. Norton. Mr. Chairman, I only have one more question.
    I do want to say this. At that time, D.C. General was open. 
It wasn't opened as a full-fledged hospital. That was open. So 
I'm talking what you saw even though the whole facility is in 
mothballs now you could get right back up. Because you know 
what? We're going to hold you accountable for that.
    Mr. Gordon. Well, we have--that's one of the reasons why 
it's not been torn down or is crumbling around our knees. We 
have the facility; we have chairs and tables and stuff that are 
still there. It hasn't been ravaged. We've maintained 
appropriate maintenance on the building.
    Ms. Norton. OK. And it's got electricity and all that 
stuff.
    Mr. Gordon. There's electricity in the building.
    Ms. Norton. All that good stuff.
    Mr. Gordon. You must understand, Congresswoman, this 
facility is contiguous to a number of buildings and the power 
sources supply also not only D.C. General but the D.C. Jail and 
other facilities that are located on that campus. So we cannot 
individually isolate and deprogram. Again, while it's been 
mothballed and we are not investing a lot of money other than 
maintaining it on a limited capital basis, if we had to 
operationalize to deal with an emergency situation we certainly 
would do it.
    Ms. Norton. My final question is, who is monitoring the 
health of the employees who were in Curseen-Morris at the time 
and what are the results of whatever studies or monitoring that 
is being done?
    Mr. Gordon. It is my understanding--and Tom Day can add 
more to this--but through Dr. Michael Richardson, our chief 
medical officer, Dr. Richardson is involved in the monitoring 
of those employees along with CDC. It's my understanding that 
CDC has primacy; and they coordinate with Dr. Richardson, who 
is our chief medical officer, with relationship to followup 
complaints of those employees. And their coordination is also 
with Dr. Reid, who is the chief medical officer for Postal 
Service.
    Mr. Day. I would concur with that. That is what's 
happening. I would tell you, on a more personal level, having 
spoken at a number of employee town hall meetings here in 
Washington as well as up in New Jersey with the employees at 
both facilities, our employees want that, and they deserve it. 
However, there's a level of mistrust that has kicked into this. 
CDC has had to use a contractor to help them to do the 
monitoring, and to a large extent they use telephone surveys.
    I've personally spoken with employees who say, ``Why aren't 
they doing a better job to monitor my health?'' And I asked 
them--I said, ``Well, were you contacted by the telephone 
survey?'' The answer is yes. Well, ``What did you tell them?'' 
``Well, I didn't want to talk to them.''
    We're having a problem to get employees who deserve and 
want this tracking and treatment if necessary, but most 
importantly tracking to understand the methodology that CDC 
needs to employ to do it. So there is a level of mistrust 
unfortunately that's crept in there. And we're trying to get 
our employees to understand, yes, CDC is doing this, they are 
monitoring. They have done a number of reports, but, as you get 
contacted by this contractor that CDC is using, please 
communicate with them and let them know what's happening if you 
have any----
    Ms. Norton. Have you seen any improvement in the responses 
from employees based on----
    Mr. Day. I don't have any quantitative data to tell you 
whether it's gotten better or worse. Anecdotally, I still hear 
from employees who raise the question but then admit to you 
they----
    Ms. Norton. Is it because CDC--they hear the name CDC? Is 
that why?
    Mr. Day. I think there's an expectation that an M.D. is 
literally going to come to your doorstep and give you a 
physical exam and that's what the monitoring is, as opposed to 
CDC trying to monitor a population of people and talk to them 
periodically through this telephone survey and understand if 
there's any symptoms that would indicate a problem.
    Ms. Norton. Mr. Lane.
    Mr. Lane. Yes, Congresswoman. We also have an Employee 
Assistance Program that is, around-the-clock, doing surveys and 
having counseling sessions with those employees to determine, 
you know, what their requirements are; and we constantly 
followup through that process as well.
    Ms. Norton. Thank you very much; and thank you very much 
for your indulgence, Mr. Chairman.
    Chairman Tom Davis. Thank you. I will dismiss this panel. I 
thank you very much for being here. I will look forward to 
having you accompany Ms. Norton and I when we walk through the 
facility before it opens. And I think, Mr. Layne, you've got a 
week to try to get us some information on that.
    Mr. Layne. Yes, sir.
    Chairman Tom Davis. Thank you very much.
    We'll just take a 2-minute recess as we switch panels. 
Thank you.
    [Recess.]
    Chairman Tom Davis. We are ready to move to our second 
panel. I just appreciate everybody's patience in staying with 
us, and hopefully the first panel has provoked some comments 
we'll get.
    I understand we have Dick Collins, the assistant to the 
president of the National Postal Mail Handlers Union, 
accompanied by Cynthia Vines; and Myke Reid, assistant 
legislative director of the American Postal Workers Union, AFL-
CIO, accompanied by Corey Thompson. Thank you both for being 
here with us. What I would like to do is swear all four of you 
in. Have we got everybody? All right. We'll just wait a second.
    We appreciate everyone being with us today, and I know this 
is very, very important to your membership. You're the front 
lines. I just want to say that Ms. Norton and I both very much 
appreciate the work that you're doing and hazards that you 
could potentially encounter any day. So we look forward to your 
testimony. As soon as we get Mr. Collins, we'll swear everybody 
in in one fell swoop.
    I'll tell you what I can do. I can start over here. Mr. 
Reid, I can start with you; and if I swear you all in right 
away--I'll start with you, and then when Mr. Collins comes in 
I'll swear him in. We can move ahead.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you, and thanks again for bearing 
with us and being with us. Now you can proceed. Try to stay 
within 5 minutes, but we're not real tight on time today, so if 
you feel you need to take more time we can give you more. We 
have read your testimony. Thank you.

   STATEMENTS OF MYKE REID, ASSISTANT LEGISLATIVE DIRECTOR, 
 AMERICAN POSTAL WORKERS UNION, AFL-CIO, ACCOMPANIED BY COREY 
   THOMPSON; AND RICHARD COLLINS, ASSISTANT TO THE NATIONAL 
PRESIDENT, NATIONAL POSTAL MAIL HANDLERS UNION, ACCOMPANIED BY 
                         CYNTHIA VINES

    Mr. Reid. Good afternoon, Mr. Chairman and Congresswoman 
Norton. My name is Myke Reid. I am the legislative assistant 
director of the American Postal Workers Union, which represents 
approximately 330,000 clerk, maintenance and motor vehicle 
craft employees of the Postal Service nationwide. I am 
testifying today on behalf of APW President William Burrus, who 
is out of town to attend a national APW conference. I am joined 
by APW Safety and Health Specialist Corey Thompson, who is 
available to answer any questions of a scientific or technical 
nature.
    When the anthrax crisis arose in October 2001, the 
terrorist attacks of September 11 were still vivid, and our 
Nation was reeling. On October 5, 2001, a tabloid newspaper 
employee in Florida became the Nation's first inhalation 
anthrax fatality from a terrorist act. Ten days later, anthrax-
contaminated mail was discovered in Senator Tom Daschle's 
office on Capitol Hill. Brentwood postal worker Thomas Morris 
died on October 21, and the facility was immediately shut down. 
Joseph Curseen, another Brentwood employee, died the following 
day.
    We have certainly traveled a long road to get to the point 
where we are finally anticipating the reopening of the Morris--
or the Curseen-Morris facility, which has been renamed to honor 
the two fallen postal workers. Yesterday's announcement that a 
piece of mail in Greenville, SC, contained the deadly poison 
ricin highlights the importance of the concerns we are 
discussing today.
    The deaths of Curseen and Morris and the closing of the 
Brentwood facility were only the beginning of a long and 
difficult period for postal workers. Some are still suffering 
ill effects from the exposure, and many still bear emotional 
scars. For 2 years they have had to dramatically adjust to the 
disruption of their work life while struggling with the mental 
turmoil wrought by the attack. I must say that, by all 
accounts, they have endured these hardships and remain 
dedicated to their mission.
    As the anticipated reopening approaches, workers are asking 
the question, ``is the facility safe for me to return?'' While 
there was cooperation between management and labor in the 
immediate aftermath of the attacks, there also have been 
serious breaches. The Environmental Clearance Committee cleared 
the facility for reoccupancy on September 19, yet this 
information was not provided to the union until October 20. 
While we were relieved to learn that the facility is deemed 
safe by the experts, we are troubled by the delay in sharing 
this information.
    Five months ago, APW President Burrus testified before the 
House Subcommittee on National Security, Emerging Threats and 
International Relations about the handling of the anthrax 
contamination at the southern Connecticut processing center in 
Wallingford. While there was no question that the amount of 
anthrax present in the Wallingford facility was sufficient to 
cause death, contamination was described to employees as being 
in trace amounts. A GAO report issued last April notes that the 
Postal Service requested, and the investigation team agreed, 
that the USPS would be the sole party responsible for 
communicating test results and other information to the workers 
at the Connecticut facility. Still, the Postal Service withheld 
information about the level of contamination from its workers, 
despite a formal request made in January 2002, by local union 
officials. The Wallingford situation was one of the most 
egregious violations of postal workers' rights in the 2 years 
since the anthrax incidents began, and it is why we are 
troubled by the recent breakdown in communication. It appears 
that the lessons learned were quickly forgotten.
    The Mail Security Task Force, a working group of postal and 
union officials formed immediately after the anthrax attacks, 
has been holding discussions for some time about the 
decontamination of the Washington, DC, and Hamilton, NJ, 
facilities and the timetable for reopening the Curseen-Morris 
facility. The Postal Service has presented an outline--but few 
details--on plans for reopening the facility to workers. The 
USPS has been communicating an overview of its reopening plans 
to workers through work-floor talks, through letters mailed 
directly to their homes, and through a variety of postings at 
facilities where Brentwood Road employees temporarily have been 
working. We appreciate the increased communication, in spite of 
the lack of specifics.
    The issue of whether individual employees will be required 
to return to work at the Curseen-Morris facility was resolved 
through an agreement between the Postal Service and the APWU. 
It provides that employees of the facility would be given one 
opportunity to indicate whether they wish to return to that 
facility or prefer to be reassigned to another facility.
    Much has been done over the past 2 years, both to bring the 
Curseen-Morris facility back online and to ensure that other 
facilities are safe and made safer. We would especially like to 
commend the USPS efforts led by vice president of engineering 
Tom Day to decontaminate the Brentwood Road facility and for 
his involvement in the development of the biological detection 
systems.
    Overshadowing much of the progress in decontaminating the 
facility, however, is the fact that little has been 
accomplished to prevent a similar incident in the future. The 
mail processing and collection system is complex, and the 
installation of Biological Detection Systems [BDS], and HEPA 
filtration equipment provide only limited protection against 
exposure. Because more than 50 percent of all letter mail is 
processed in presort mailing houses and bypasses the BDS, this 
equipment cannot be considered an adequate early warning 
system. And it must be remembered that at this time the BDS 
system tests only for anthrax. Furthermore, the Biological 
Detection System may provide for a rapid response in treating 
workers but only after there has been an attack. Detection 
would occur only after a contaminated piece of mail has entered 
the system--only after workers have been exposed. Sounds grim, 
and it is.
    Because postal workers are very dedicated to their jobs, 
they will continue to perform their duties. But they need more 
than a report suggesting that a workplace is safe to enter. 
They deserve to know that the responsible parties are dedicated 
to ensuring their safety and that progress is being made 
expeditiously. We urge the Postal Service to follow the 
recommendations of the Environmental Clearance Committee to 
continue monitoring the work environment after the facility is 
reopened. We urge the responsible parties to be especially 
sensitive to the needs of the employees of the Brentwood 
facility and to make every effort to accommodate them.
    Again, we'd like to thank the chairman, Congresswoman 
Norton and Ranking Minority Member Waxman for these hearings; 
and we would be happy to answer any questions you might have 
following this testimony. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Reid follows:]
    [GRAPHIC] [TIFF OMITTED] 91921.057
    
    [GRAPHIC] [TIFF OMITTED] 91921.058
    
    [GRAPHIC] [TIFF OMITTED] 91921.059
    
    [GRAPHIC] [TIFF OMITTED] 91921.060
    
    [GRAPHIC] [TIFF OMITTED] 91921.061
    
    [GRAPHIC] [TIFF OMITTED] 91921.062
    
    [GRAPHIC] [TIFF OMITTED] 91921.063
    
    Chairman Tom Davis. Mr. Collins, I need to swear you in. 
Could you just raise your hand?
    [Witness sworn.]
    Chairman Tom Davis. Thank you very much. You can proceed. 
Thanks for being with us.
    Mr. Collins. Thank you.
    Mr. Chairman and distinguished members of the committee, I 
am Richard Collins, assistant to the national president of the 
National Postal Mail Handlers Union. On behalf of the 50,000 
union mail handlers employed by the U.S. Postal Service, 
including hundreds of mail handlers who work at the Curseen and 
Morris processing and distribution center, I appreciate the 
opportunity to testify about the reopening of that facility. I 
am accompanied here today by Cynthia Vines, who serves as the 
branch president for the Mail Handlers Union at that facility. 
Sister Vines has done fantastic work on behalf of the mail 
handlers at that facility, and she is intimately familiar with 
many of the matters at issue in this hearing today.
    The recent incident at the Greenville, SC, airmail facility 
reminds us that mail handlers and all postal workers continue 
to fight to protect the public from potentially lethal hazards. 
As you noted on the radio this morning, Mr. Chairman, when the 
headlines disappear and the news coverage vanishes, our members 
remain on the job and on the front lines of defense against 
terrorism and biochemical hazards. We must all work together--
the unions, the Postal Service, the community, and Congress--to 
adapt to this new world in which we live.
    As you said this morning, Congress must spend the money to 
protect postal workers and the public; and the money needs to 
be spent wisely. The lives of all postal employees depend on 
it, and this must be our paramount concern. This includes not 
only ensuring that the Curseen-Morris facility is free of 
anthrax but also making sure that the employees are emotionally 
ready, willing and able to move back into the facility.
    To this end, the Mail Handlers Union has been an active 
participant in the Mail Security Task Force, established by 
postal management and including representatives of all unions 
and employee associations, which has been meeting regularly 
since October 2001, to ensure that all reasonable measures are 
being taken to prevent any further infection from anthrax or 
other biological agents. We also have been active supporters of 
the efforts to obtain sufficient congressional funding for the 
clean-up efforts both here, at Curseen-Morris and at other 
postal facilities along the eastern seaboard. We particularly 
appreciate the efforts made by the members of this committee 
and fervently hope that the Congress will continue to provide 
complete funding for the costs imposed on the Postal Service 
because of the anthrax attacks and their aftermath.
    Turning to the present situation at Curseen-Morris, again, 
our primary concern must be the health and welfare of the 
postal employees who work at Curseen-Morris and who for the 
past 2 years have been scattered around in neighboring postal 
facilities. To meet these concerns, the employees at Curseen-
Morris must know that the facility is safe.
    First, the employees at Curseen-Morris must know that all 
levels of government and postal management have done everything 
possible, using the best available science and technology, to 
ensure that the Curseen-Morris facility is fully 
decontaminated. To this point, each and every scientific study 
conducted about Curseen-Morris and each and every environmental 
sample taken at Curseen-Morris have demonstrated that the 
facility is ready to be reopened. Several representatives of 
the Mail Handlers Union, including me, have toured the facility 
both in June of this year and most recently on October 8, 2003, 
to ensure that the facility is clean and clear of anthrax.
    Second, the employees at Curseen-Morris must be kept fully 
informed about the latest developments, including information 
about the actual clean-up, so that there is no misinformation 
disseminated and so that the rumor mill is not allowed to 
operate. It is my understanding that the employees have 
received routine safety talks about the reopening of the 
facility, that the Postal Service has been mailing copies of 
these talks to affected employees, and that the Postal Service 
currently is trying to arrange a tour of the facility for 
employees prior to its official reopening. While communications 
with employees generally have been good, there is a need to do 
additional training on the emergency protocols that will 
control after the reopening of the facility.
    Third, the employees at Curseen-Morris must know that they 
have a choice on whether to return, so that employees who are 
experiencing particular fear or anxiety can choose not to 
return to Curseen-Morris without any loss of pay or economic 
benefits. The Mail Handlers Union and the Postal Service 
recently signed a memorandum of understanding that grants each 
mail handler who previously worked at Curseen-Morris, but who 
does not want to return to that facility, an opportunity to 
transfer to a nearby location. That transfer will be 
accomplished pursuant to the longstanding rules that govern 
voluntary transfers, as negotiated in Article 12 of our 
collective bargaining agreement.
    Fourth, the employees at Curseen-Morris must know that when 
they return to Curseen-Morris they will be carefully monitored 
for any illness or other adverse side effects, whether physical 
or emotional, especially during the first few days and weeks 
after the facility is reopened. The Postal Service's testimony 
on that point was that the medical unit would be staffed 24 
hours a day, 7 days a week. But what was not said at the 
microphone was that was going to be for a 30-day period, and we 
believe that 30-day period should be extended.
    Fifth, the employees at Curseen-Morris must know that the 
reopening of Curseen-Morris is not the end of our concerns but 
rather another starting point from which the Postal Service 
will take all steps that are necessary and use whatever 
technologies are available to ensure that postal employees and 
the mail that they process remain safe.
    Sixth, the employees at Curseen-Morris must know that their 
elected representatives, meaning their union representatives at 
the local level, will continue to be active participants in the 
process that leads up to and follows the reopening of the 
Curseen-Morris facility.
    If these general guidelines are followed, we believe that 
the reopening of Curseen-Morris can be accomplished smoothly 
and successfully. All the participants must work together to 
ensure the safety and well-being of the employees at Curseen-
Morris. Anything less would increase the fear and anxiety of 
these employees who have already suffered too much.
    There are just a few concerns that I would mention to you, 
Mr. Chairman. We have heard about the offer by the Postal 
Service to do fit tests and provide masks to people and attempt 
to provide some level of reassurance and ease their anxiety. 
But we believe that if the facility is clean this may generate 
more fear than it calms. In meetings with management, 
representatives of this union suggested that very fact to the 
Postal Service officials; and apparently they had some prior 
commitment or promise that these masks would be provided.
    There's also concern about the biodetection systems that 
are to be placed in the Curseen-Morris facility. As of now, it 
is my understanding that there are operational questions left 
unanswered by the Postal Service as to whether or not 
originating mail will be processed in the Curseen-Morris 
facility. Originating mail is the collections mail or the 
anonymous mail for which the biodetection systems were 
primarily designed. These machines are placed on individual, 
automatic, facing and sorting machines that are operated by 
mail handlers in such a way as to isolate individual pieces of 
mail as they go through the last pinch point to take air 
samples that can then be tested for the presence of DNA that 
might match an anthrax profile. If that originating mail does 
not return to that facility, there is no set plan in place to 
address the concerns of the employees as to how they will be 
protected from any other possible contamination from anthrax-
laced mail or mail that contains any other biological agents. 
We've been told that there is consideration being given to 
placing free-standing units around the facility and taking 
random air samples, but we have yet to hear the final completed 
plan, and there's great concern as to whether or not that plan 
will be adequate.
    And, finally, the training that was mentioned earlier; it 
has been the experience of the Mail Handlers Union in the 
Curseen-Morris Facility that most of that training has been 
handled through safety talks and stand-up talks on the floor 
where employees are gathered around in a group and told what to 
look for in terms of characteristics of mail pieces and the 
types of things that might indicate a potential problem. We 
would like to see the Postal Service move away from the paper 
training, and do some actual SITREPs, and let people come into 
an area where a piece of mail that is--simulates a suspicious 
package or mail piece is placed, and take them right through 
the drill. And we would like that training to be done in the 
presence of the supervisors from that facility so that 
everybody in that facility gets the same message at the same 
time, so that if an incident occurs, we will not have to deal 
with a supervisor who is not familiar with the protocol or 
perhaps misunderstood a protocol. We would like everybody to 
get the same message at the
same time. We think that is critical.
    With that, I thank you for your time and the opportunity to 
testify here today. I would be happy to answer any questions.
    Chairman Tom Davis. Thank you.
    [The prepared statement of Mr. Collins follows:]
    [GRAPHIC] [TIFF OMITTED] 91921.064
    
    [GRAPHIC] [TIFF OMITTED] 91921.065
    
    [GRAPHIC] [TIFF OMITTED] 91921.066
    
    [GRAPHIC] [TIFF OMITTED] 91921.067
    
    [GRAPHIC] [TIFF OMITTED] 91921.068
    
    Chairman Tom Davis. It is real clear that communications 
are critical in these areas from the very beginning to the end. 
It hasn't gone as good as it could, even in the aftermath. That 
is fair to say, both of you?
    Mr. Collins. Yes.
    Chairman Tom Davis. You are obviously a very critical part 
of this equation. As you look at the existing protocols, you 
heard the previous panel talk about the existing protocols and 
Ms. Norton go into excruciating detail about differences in the 
changes in these protocols. Are you satisfied with the existing 
protocols or do you have additional suggestions for the Postal 
Service, in terms of handling hazardous packages and letters?
    Mr. Collins. I believe the Postal Service has some of the 
best written protocols in the Federal Government. They need to 
learn to follow them.
    Mr. Thompson. I would agree. There are some protocols which 
constantly need modification because things do change and more 
information becomes available. The implementation of those 
protocols out into the various number of facilities needs 
considerable improvement.
    Chairman Tom Davis. And training is a key part of that as 
well.
    Mr. Thompson. Training, not only about the protocols for 
the folks who are actually working, but of the supervisors and 
managers; definitely, that needs to be included.
    Chairman Tom Davis. How about, when it is identified or 
identifies a potential threat, how should that be communicated? 
Are you comfortable with the way it is done now, like in South 
Carolina? You don't want to be alarmist about things, if you 
have an indication. On the other hand, you want to make sure 
that people who might be endangered know that. Are we 
comfortable with that?
    Mr. Thompson. I think that at this point in time, we are 
still trying to gather evidence or information, if you will, on 
what occurred in South Carolina. We know that there was a 
suspicious envelope discovered on the 15th. And it was the 22nd 
when the actual test results came back. That is quite a lag of 
time.
    Had there been a contamination at that facility with the 
material that we are dealing with, I think we would be talking 
about something totally different than a suspicious package and 
it being identified at a later date. So I think that protocols 
and understanding those protocols, we are still looking into 
that particular incident. I know with thousands of suspicious 
packages and envelopes that are found on a regular basis that--
--
    Chairman Tom Davis. Therein lies the problem. If you can't 
react to anything, or have more people, do you close it down 
and the like?
    Mr. Thompson. I think you can react to everything. What you 
do, though, in those circumstances in handling them may take in 
various considerations.
    Chairman Tom Davis. Let me ask you each: In your respective 
unions, what percentage of the employees are going to return to 
the Brentwood area facility, under your agreement, and how many 
are we anticipating will go elsewhere? Do you have an idea?
    Mr. Reid. We do not know.
    Ms. Vines. I can't give you a definite number.
    Chairman Tom Davis. You may not know until the date?
    Ms. Vines. Exactly.
    Chairman Tom Davis. We would appreciate getting that. I 
would be interested to know what that would be at the 
appropriate date.
    Do you think they have made adequate accommodations for 
members who are fearful of returning for one reason or another?
    Ms. Vines. I do think so, yes.
    Chairman Tom Davis. Have you been talking to your local 
representatives in South Carolina at this point? Mr. Reid, do 
you want to tell us about any communication you have had with 
them, how they are feeling at this point?
    Mr. Reid. Yes, Mr. Chairman. Our union has five regional 
coordinators that operate throughout the country. And our 
southern regional coordinator, who is responsible for 
Greenville, SC and with that local, I have been in contact with 
the local. So, yes, we have been in touch with them.
    Chairman Tom Davis. As I understand your testimony, they 
are still feeling their way through how this was handled, and 
the consequences. It is really too early to make a 
determination or judgment. Is that fair?
    Mr. Thompson. Yes.
    Mr. Reid. Yes, sir.
    Chairman Tom Davis. Do you have any thoughts on the Postal 
Service's proposal to locate an irradiation facility at the 
Curseen-Morris Processing Center, either one of you?
    Ms. Vines. We have some concerns. I believe that if they 
must have an irradiationsite, that it should not be onsite with 
the employees. And most employees feel the same way.
    Chairman Tom Davis. OK.
    Mr. Thompson. I think we are still investigating. They are 
in the permit phase now. We have asked for copies of the 
initial investigation from the Postal Service. It is--it again 
is too early to make a determination. We haven't really gotten 
feedback from a tremendous number of employees that are out at 
that site at this point in time.
    Chairman Tom Davis. You know, it looks like, hearing the 
testimony from the previous panel, that everybody thinks they 
have done everything they can to make sure this facility will 
be safe. But you saw, nobody is willing to step forward and say 
it is 100 percent safe, which gives us some concern. That is 
why Ms. Norton and I want to walk it with them, and try to give 
some level of comfort to workers who may be coming in. What is 
your level of comfort at this point? What are your workers' 
levels of comfort?
    Mr. Collins. Well, Cynthia and I have both been through it. 
So we are hoping it is at least 99.9 percent clean.
    Chairman Tom Davis. You are still here to tell about it.
    Mr. Collins. I went through there in June. At that time 
there had been contractors working in the building for a couple 
of months without personal protective equipment. And to my--at 
that time in June, we were told that nobody had suffered any 
ill affects from that exposure.
    Chairman Tom Davis. I guess the question is, we are dealing 
with something that we haven't had to deal with before, so 
nobody is willing to swear up and down that it is foolproof.
    Mr. Collins. The people that knew about it in October 2001 
wouldn't talk about it. These are the people from Ft. Detrick.
    Chairman Tom Davis. Is that right?
    Mr. Collins. Ft. Detrick is the weapons facility where the 
Army----
    Chairman Tom Davis. I am surprised that they wouldn't talk 
to you about it more frankly.
    Mr. Collins. I actually helped to develop some of the early 
protocols, and there was a doctor there from Ft. Detrick. And 
many times we asked questions and we were simply told that we 
could not be given that answer because of national security.
    Chairman Tom Davis. There is still no closure on the 
underlying case, as I understand it either, which also makes 
everybody feel nervous. Whoever sent that letter could do it 
again.
    Mr. Collins. Absolutely.
    Chairman Tom Davis. Mr. Reid, anything to add to that?
    Mr. Reid. No. I was just thinking if we were guaranteeing 
that and returning to the Curseen-Morris facility, we were 
going to say that, then a light fixture would fall from the 
ceiling and hit somebody. So there is--there is just no way to 
guarantee safety.
    But, with the irradiation facility that is being planned 
and discussed at Brentwood, we actually have a different 
position. The Postal Service has announced a position to staff 
that facility with the contract employees. And we would 
actually be concerned that if there is going to be mail 
processed in that facility, we would like it to be by postal 
workers.
    Chairman Tom Davis. Employees?
    Mr. Reid. Absolutely.
    Chairman Tom Davis. I like that kind of candor. It is 
refreshing to hear it.
    Ms. Norton, any questions?
    Thank you very much. It has been very illuminating for Ms. 
Norton and for the committee. I hope we have a successful 
opening and, for the employees that are fearful, that we can 
accommodate them in line with the agreements that you have 
reached with the Postal Service. Thank you again for the job 
that you and your members are doing.
    Ms. Norton. Thank you, Mr. Chairman. Just a few questions. 
I was interested in your response, Mr. Reid. I was concerned 
that the irradiation facility had been contracted out. It is 
not that postal employees were doing the irradiation before, 
but I am aware that in New Jersey, postal employees take the 
mail to the facility, and of course postal employees take the 
mail out. And while I commend you instead of running from the 
facility, especially in a government that is contracting out 
everybody except their grandmother, wanting the facility to be 
serviced by postal employees. I mean, after all, these 
employees are going to have to handle this mail, perhaps almost 
immediately.
    After we in the Congress don't get our mail for weeks now, 
and the whole point of moving it to Brentwood is, of course, to 
shorten that time. I was--I will be very concerned about my own 
residents. But, I am going--I must say that when I hear that 
the facility here is going to be considerably more safe than 
the one in New Jersey, because it is being constructed to--it 
is being tailored, if I was in the union, I would try to get 
those jobs is what I am saying, rather. All your people are 
going to be in Brentwood. And some balance here has to be kept 
in the age of weapons of mass destruction. I mean, I am 
confronted all of the time in the Congress by people who want 
to shut down everything. We can make everything safe. Nobody 
will have any jobs, tourists won't come to Washington or to 
anyplace else. We will all be locked down. Though we have been 
tough on the Postal Service, I don't want to leave the 
impression that for the first time in the history of mankind, 
everybody is entitled to 100 percent assurance that nothing 
will ever happen to them.
    I do have just a few questions. I don't know if it was you, 
Mr. Reid, or you Mr. Collins who testified about this delay in 
sharing the information that the building has been cleared. I 
don't recall it--to be maybe a month before you knew that. Did 
you ask for an explanation for the time lag? What was the 
explanation given? I would have asked them had I thought about 
that when they were here.
    Mr. Thompson. We just received the information, the letter 
the other day. Prior to--well, was prior to--at our meeting for 
the work force. We haven't had time to ask why the delay?
    Ms. Norton. Our concern would be all of the discussion 
about communication, yet there kind of--what--the word, the 
operative words to me are cleared. So if they were holding the 
information because they weren't sure, that is one thing. But, 
according to your testimony, it was cleared. And then there was 
a month lag in telling people. Well, that is good news there 
was a month lag. But, suppose there had been bad news? Would it 
take--would there be a gap in time as well? The communication 
issue has been vital here. And so we need to know. We will 
have--Mr. Chairman, it seems to me we ought to ask the Postal 
Service why did it take a month if they cleared the facility--
that is good news--when they get that news out so that we don't 
have these lingering doubts among employees that something was 
being held back, even after the facility has been cleared?
    Mr. Reid. To answer that Congresswoman, we think, had these 
hearings not been scheduled for today we might not still have 
it.
    Ms. Norton. You say you don't have it?
    Mr. Reid. We do have it now. But we got it 3 days before 
today's hearing. So there is a feeling that had the hearings 
not been scheduled for today, we still might not have received 
the report.
    Ms. Norton. Well, we will find out. You perhaps all heard 
testimony, I have been very concerned about monitoring health 
and had pressed CDC. Now, we heard testimony just before you 
came forward that they are calling employees that don't want to 
talk. They think maybe they are bringing trouble onto 
themselves, doctors coming in, they may fear for their jobs. I 
don't know what the reason is. I want to ask you, inasmuch as I 
am sure you want their health monitored, whether it is--
monitoring is necessary, or why you think employees are 
reluctant to talk on the phone to people who are trying to do 
the kind of surveys that you initially to know if you have a 
health problem among subjects.
    Mr. Thompson. Within the--I believe there are--you are 
speaking about the CDC monitoring the health of employees? What 
I have heard from employees is, first of all, they didn't know 
what the call was. They have been inundated with a number of 
requests for information. They felt, many of our members, had 
spoken of feeling like guinea pigs as part of studies, and they 
really did not get a good understanding of what this contractor 
was asking them for. So, in many cases, folks just said, ``I am 
not talking to anybody about this; who are you?'' And then it 
was the, ``I am not going to talk to you.'' It wasn't a good 
introduction of, ``This is the CDC; we are monitoring this.''
    Ms. Norton. Did the contractor consult with the union?
    Mr. Thompson. No.
    Ms. Norton. You contract this stuff out, they just do it.
    Mr. Thompson. Neither did CDC.
    Ms. Norton. Mr. Chairman, this is something that--a 
question I would like to have submitted to the CDC. We will 
work with the committee on this question. It seems to me that 
if you are going to go to employees after that terrible tragedy 
to ask them about their health, the facility isn't open, one of 
the first things you would say: ``We have consulted with your 
representative in preparing these questions. The purpose of 
these questions is to assure that your health continues to be 
good, or if it is not good that we learn of it in time to be 
helpful,'' rather than--sounds like people going through a 
checklist. And, you know, I am not sure that I would answer 
those if you called me. Before you get the words out of your 
mouth, I would hang up the phone before I even know what you 
want because of these people who bother you with phone calls. 
So I believe that is a very serious communication problem. It 
is I who press the CDC to say, ``we want to know if employees 
have doubts.'' We--they don't know if, for example, there will 
be remaining problems that don't come--that don't come until 
later. We know that the problem with a causal effect, you know, 
what causes what.
    But we, at least, have to make sure that this experience 
informs us so that we learn from it. It is tragedy if we don't 
learn anything from it, if we don't learn how to help these 
employees. I think, I am not sure what in the world we are 
going to do with it except regret it.
    You testified, I think it was Mr. Collins, about simulated 
training. And for the first time I think you explained that 
there was paper training going on. And I assumed once we heard 
the word ``training,'' that somebody was sitting down with some 
folks and showing them how to do things and seeing responses 
from them and saying, what are your questions? You are telling 
me that kind of training is not going on?
    Mr. Collins. The HAZMAT training that was referred to by 
the Postal Service is annual training, that is something that 
the people that go in and actually take that mail out or assess 
it or work with the first responders get trained on. But people 
on the floor get safety talks.
    Ms. Norton. There is a distinction here between mail 
handlers on the one hand, then, and the postal workers on the 
inside?
    Mr. Collins. There are differences in the jobs that are 
performed. But, we are all----
    Ms. Norton. But you, of course, are the first line of--you, 
the mail handlers, are the first ones to get ahold of the mail. 
So they----
    Mr. Collins. We take it off the trucks and we move it 
inside. We do the first cull inside the building and prepare it 
for the distribution functions.
    Ms. Norton. Your training would be different in any case. I 
understand that, but--because you are doing a different job. 
But you say that with the HAZMAT training, that is simulated 
training, where you actually do something and see somebody do 
something, a paper trial.
    Mr. Collins. Let me see if I can clarify exactly what I did 
mean for you. The HAZMAT training, there are individuals in the 
facility, members of the American Postal Workers Union, they 
come out of the maintenance branch, to get hands-on training on 
how to respond to a hot piece of mail or a suspected hot piece 
of mail.
    When I speak to the problems that are experienced by the 
mail handlers, who work the letter belts and cull that mail to 
prepare it for preparation, and quite possibly, I believe, mail 
that is worked on belts by members of the American Postal 
Workers Union, when that mail is out in the open in the 
distribution process or in preparation for the distribution 
process, that is when you find a suspicious mail piece. And the 
people who are working those belts don't get actual training on 
identifying a mail piece, they get shown a poster or they are 
given a stand-up talk, or what the Postal Service calls a 
safety talk. They will be told what types of characteristics to 
look for on that mail piece, perhaps a stain from a leaking 
container inside that envelope, or perhaps a parcel with an 
inordinately large number of stamps on it, or a parcel that is 
addressed by hand with no return address. Those are all the 
types of characteristics that people are told to look for. And 
then they are told to leave that mail piece alone and go and 
get their supervisor. But, all too often when that happens, a 
supervisor will walk over, simply take that piece of mail, take 
it off the floor, or tell the employee, ``don't worry about it, 
toss it over there in the bin, let's keep moving.'' We have had 
those type of situations in the wake of the anthrax attacks at 
Curseen-Morris. We have had those types of problems across the 
country. We have brought them to the Postal Service's 
attention. They have gone out and attempted to remediate their 
training with their supervisors to avoid similar occurrences. 
But, that is what I meant when I said they have some of the 
best written protocols.
    Ms. Norton. But they have not instituted simulated training 
as a result of those?
    Mr. Collins. No. That is what I was talking about. If you 
take the supervisors, you take the employees, you put a piece 
of mock-up mail on that letter belt, everybody gets the 
training. You bring in the safety specialists, you bring in all 
of the supervisors, you bring in the employees and everybody 
gets that training, so if it does happen in real life, nobody 
says: ``Why don't you go to the bathroom. I will take this 
over.'' Those are the types of things that we are up against.
    Ms. Norton. Mr. Reid, again, were the people who are 
handling mail on the inside the same people who are given 
written instructions?
    Mr. Thompson. It is the same. We get a stand-up talk which 
may be included with any other item non-safety related. There 
is no training program. I get the opportunity, when we see 
them, to review the training programs from the post office. And 
there isn't one that I have seen that specifically says that it 
is titled or provides training for biohazards or detection or 
how to take care of yourself.
    Ms. Norton. That is not acceptable. That is just not 
acceptable. We are going to have to followup with the Postal 
Service. First of all, they are leaving themselves open to 
liability, in my considered legal judgment, once you have had 
the kind of thing to happen, and you then issue some paper to 
thousands upon thousands upon thousands. First of all, have 
they read it? You issue a piece of paper. And, I am not 
suggesting there ought to be a test, you know, on this paper. 
But, I am suggesting that you have an obligation to make sure 
that training--I do not regard reading regulations as training, 
not after an incident like this has occurred. I might in some 
circumstances. That is a followup matter that we should have, 
in my judgment, for the Postal Service.
    I just have a couple more questions. That is a very 
important issue it seems to me, especially for people about to 
go back. I don't think it would take a great deal given their 
explanation of how it occurs. But, it does seem to me that you 
would want to see people do it, if for no other reason, than to 
impress upon them how you are supposed to handle such mail, 
particularly since we are not talking about anthrax. We don't 
know what in the world we are talking about.
    These masks, we keep hearing about these masks. I assume 
that people do--a lot of folks don't want to wear any mask all 
day, have a mask on. So I don't know how to handle this matter 
that we hear of from time to time about the masks don't fit 
and, you know, there was guys--Mr. Collins, you testified was 
it, that people have concerns about them?
    Mr. Collins. It has caused anxiety. They are being told on 
the one hand that the facility is clean and clear. We believe 
that to be the truth. Then, they are saying, ``if you are not 
comfortable with that, we will provide these N-95 filtering 
face pieces so that you don't feel too insecure or anxious 
about performing your duties.''
    Ms. Norton. So do people wear those masks? What do you 
think should help with those masks? Well, if people--do people 
wear them at all? Is it really necessary to wear a mask 
constantly at work? It does seems to me that it might be 
something like between a rock and a hard place on this one.
    Mr. Collins. These masks were provided after a great deal 
of discussion on the--at the mail security task force, and 
distributed around the country in the fall of 2001. There were 
two types of masks. One was an N-95 and one was an N-100. And 
they were named as such because the N-95 is supposed to filter 
out 95 percent of the particulates in a range of 3 to 5 microns 
diameter. And the N-100 was something like 99 percent effective 
in that same range. And that was protection that was provided 
when we didn't know if there was widespread contamination in 
the Nation's mail. And in the wake of the anthrax contamination 
at Brentwood in 2001, these masks went out and people wore them 
for a short period of time, and then very much dropped back 
onto the comfort zone that we are all guilty of as human beings 
and stopped wearing them.
    Mr. Thompson. I think that it is true. They were developed, 
and it was done on a voluntary basis. It was--also, gloves were 
provided at the same period of time for folks to wear with the 
uncertainty of what could come through, such as the incident in 
South Carolina. The opportunity for our members, and our 
members, there are a number of them that do wear masks. There 
are a number of them that do wear gloves. They wear them for 
their own personal protection. Until such time as other 
protections, through administrative control or engineering 
controls can be provided to workers that handle mail, they have 
to have some type of a protection, and those are provided, the 
gloves and masks, which are considered personal protective 
equipment. They aren't the first choice, but they are a choice.
    And the issue of whether or not to provide fit testing for 
masks, if you wear a mask, it should fit the best possible way. 
And, in conversations with the Postal Service, the program at 
the Curseen-Morris facility is for those who choose to do that. 
All postal employees can wear gloves and masks. That has been 
established since very early in the process with anthrax. The 
issue of fit test is for those that want to.
    Ms. Norton. I can see the problem there. You--I am not sure 
there is much more that you can do about it. I have two more 
questions. One has to do with the Biological Detection System 
that is described in Mr. Reid's testimony. And that is said to 
provide only tests for anthrax. And of course, 50 percent of 
your mail, according to this testimony, is processed in presort 
mail houses, in any case.
    First of all, is the biological detection system in place 
in Curseen-Morris?
    Ms. Vines. No.
    Mr. Collins. No. It is not. Nor will it be in place by the 
time that employees go back into the facility.
    Mr. Collins. It is my understanding, again, that there are 
operational considerations for the Postal Service to determine 
whether or not they are going to run the uncanceled mail. And 
the Biological Detection Systems that were produced, were 
originally produced with the intention of protecting that 
particular portion of the mail stream. If they do not put a 
canceling operation in the Curseen-Morris facility--we just 
learned earlier this week for the first time of plans to try to 
protect that facility with a series of those machines placed 
about the facility in a freestanding manner.
    But, we have grave----
    Ms. Norton. Biological Detection Systems?
    Mr. Collins. Yes. We have grave concerns about their 
efficiency because they weren't engineered to perform random 
testing or random air sampling in the facility. They were 
specifically designed to be placed on those canceling machines, 
the automatic facing canceling system.
    These machines are placed at the very last set of rollers, 
the very last pressure point where the mail is essentially 
whittled down to a very single letter before it enters that 
machine so that the stamp can be canceled. It was done that way 
for the purpose of ensuring that every single letter that gets 
processed has a chance to be sampled in the event that there is 
anthrax in that envelope. That when those rollers come together 
and pinch that envelope, and create that little puff of air 
that we probably all saw on the news a couple of years ago, 
that sampling device, this Biological Detection System, has the 
opportunity to take a sampling of that air so that the air can 
be sampled and tested and run against what is essentially a 
library of DNAs to determine if anthrax was present in any of 
the envelopes that were tested during the sampling period.
    The sampling period is intended to be roughly 1 hour. We 
were told that every hour a vial will be processed to check for 
the presence of anthrax against the DNA in the mail that has 
been processed in that time period.
    Ms. Norton. Mr. Thompson.
    Mr. Thompson. It is--you know, Dick had just said that we 
just found out that there may be the possibility that the 
machinery that biological detection equipment was designed to 
operate on may not even end up at the Curseen-Morris facility. 
And that there was a proposal to have a free-standing piece of 
equipment which had the same scientific principal. The concern 
raised----
    Ms. Norton. But you don't know whether that is going to be 
in there or not, the free-standing machine. Is that--are they 
going to be in there for sure?
    Mr. Thompson. We don't know that for sure. It is still 
being evaluated. The Postal Service hasn't determined that yet.
    Ms. Norton. They may not be useful because they are not 
attached to the machines?
    Mr. Thompson. Well, that is very well true. They may not. 
The difficulty comes in--there has been a 2-year process in 
developing this equipment, with folks from NIOSH and folks from 
other agencies doing testing to determine the best way for this 
equipment to work on a piece of equipment.
    Now, to just try to apply the analytical theory to a free-
standing machine leaves a tremendous amount of sample 
collection, sample design, whether or not it can sample a 
sufficient amount of air, how often and so on. It leaves a lot 
of scientific principles unanswered. And until it is tested, I 
think that we are trying to apply it to something which doesn't 
have good enough theory behind it.
    Ms. Norton. It looks like a jerry-built mechanism.
    Mr. Chairman, again, I appreciate your indulgence. I just 
want to say to these witnesses, your testimony has been very 
important. We got good testimony, it seems to me from the 
Postal Service, from the scientific authorities. But, there is 
new and important information that came out because of your 
very vital testimony, I thank you for coming forward.
    Chairman Tom Davis. I also want to thank you. It has been 
very revealing to us as we move ahead with jurisdiction over 
those issues. And again, congratulations to the men and women 
that work for you. They are doing a good job. We want to give 
them every protection and make sure that the protocols are in 
place, the equipment is in place, the training is in place, as 
we move to reopen the facility in the Brentwood area and that 
we meet your concerns. So thank you very much.
    This committee stands adjourned.
    [Whereupon, at 4:05 p.m., the committee was adjourned.]
    [The prepared statement of Hon. Elijah E. Cummings and 
additional information submitted for the hearing record 
follow:]
[GRAPHIC] [TIFF OMITTED] 91921.069

[GRAPHIC] [TIFF OMITTED] 91921.070

[GRAPHIC] [TIFF OMITTED] 91921.071

[GRAPHIC] [TIFF OMITTED] 91921.072

[GRAPHIC] [TIFF OMITTED] 91921.073

[GRAPHIC] [TIFF OMITTED] 91921.074

[GRAPHIC] [TIFF OMITTED] 91921.075

[GRAPHIC] [TIFF OMITTED] 91921.076

[GRAPHIC] [TIFF OMITTED] 91921.077

[GRAPHIC] [TIFF OMITTED] 91921.078

[GRAPHIC] [TIFF OMITTED] 91921.079

[GRAPHIC] [TIFF OMITTED] 91921.080

[GRAPHIC] [TIFF OMITTED] 91921.081

[GRAPHIC] [TIFF OMITTED] 91921.082

[GRAPHIC] [TIFF OMITTED] 91921.083

[GRAPHIC] [TIFF OMITTED] 91921.084

[GRAPHIC] [TIFF OMITTED] 91921.085

[GRAPHIC] [TIFF OMITTED] 91921.086

[GRAPHIC] [TIFF OMITTED] 91921.087

[GRAPHIC] [TIFF OMITTED] 91921.088

                                   - 

</pre></body></html>
